<html>
<title> - STRATEGIC ASSESSMENT OF U.S.-RUSSIAN RELATIONS</title>
<body><pre>[Senate Hearing 110-565]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-565
 
                        STRATEGIC ASSESSMENT OF 
                         U.S.-RUSSIAN RELATIONS 

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               __________

                             JUNE 21, 2007

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
              http://www.gpoaccess.gov/congress/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

45-167 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




























                COMMITTEE ON FOREIGN RELATIONS          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

                             (ii)          

  

















                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R. Jr., U.S. Senator From Delaware............     1


Brzezinski, Dr. Zbigniew, former National Security Advisor; 
  counselor and trustee, Center for Strategic and International 
  Studies, Washington, DC........................................    32

    Prepared statement...........................................    35


Fried, Hon. Daniel, Assistant Secretary for European and Eurasian 
  Affairs, Department of State, Washington, DC...................     5

    Prepared statement...........................................     8

    Responses to additional questions submitted for the record by 
      Chairman Biden for Ambassador Fried........................    15


Lugar, Hon. Richard G., U.S. Senator From Indiana................     2


Scowcroft, Lieutenant General Brent, USAF (Ret.), former National 
  Security Advisor; president, the Scowcroft Group, Washington, 
  DC.............................................................    37

                                 (iii)

  


                        STRATEGIC ASSESSMENT OF 
                         U.S.-RUSSIAN RELATIONS

                              ----------                              


                        THURSDAY, JUNE 21, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:45 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Feingold, Cardin, Lugar, Hagel, 
Corker, Voinovich, and Isakson.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. This morning, the committee will hear 
testimony on the United States strategy for managing relations 
with Russia.
    Over the last 7 years, Russia has, in my view, slipped into 
a mire of authoritarianism, corruption, and manufactured 
belligerence. These developments, along with many serious 
domestic problems, have been partly masked by an extraordinary 
oil and gas windfall. But these resources are not solving 
Russia's public health and demographic crisis, they aren't 
being used to modernize Russia's aging oil and gas 
infrastructure, and they aren't bringing peace to the North 
Caucasus. Instead, we've seen a spread of rampant corruption, 
Kremlin efforts to muzzle dissent and bully neighbors, and a 
fixation on acquiring pipelines to deliver hydrocarbons to our 
close allies.
    In view of these stark realities, and the Kremlin's charged 
rhetoric about the United States, the most important 
conclusion.0. we can draw about our strategy for dealing with 
Russia is that we need a new one. Whatever our game plan has 
been--and I am not convinced we've had one--it clearly isn't 
working.
    Russia is very important to the United States in at least 
three respects:
    First, we have an interest in the country's domestic 
situation, including the security of its nuclear stockpiles. 
Contrary to what Russian media might say, the United States 
needs a Russia that's strong and stable. Russia is the only 
other State in the world with enough nuclear weapons and 
delivery capacity to wipe us out. We can't afford to see its 
government crippled by corruption and lack of accountability. 
Beyond that, Russia's domestic problems, especially its looming 
democratic implosion, could become a source of significant 
instability in the world. Russia is losing the a population 
equivalent to the size of the State of Delaware--almost 1 
million people each year. Its population could be cut in half 
by the year 2050. No country--no country--can endure that type 
of loss indefinitely without serious consequences.
    Second, we have an interest in Russia's neighborhood. Many 
countries in Eastern Europe and along Russia's border occupy 
positions of significant strategic and political importance. 
They rely on Russia for energy, and trust that it won't abuse 
its size and resources like a playground bully. We must respond 
to Russia's actions that destabilize the country's neighbors or 
undermine the region's young democracies.
    Third, by virtue of its permanent seat on the United States 
Security Council and the size of its territory, population, and 
economy, Russia remains a significant strategic player, with 
the ability to affect many of our global interests. We've seen 
this recently, in Kosovo. There, as in numerous other cases, 
Russia's influence has not been helpful.
    For years, the Bush administration tried to paper over 
problems with Russia. More recently, the State Department has 
said it will work with the Kremlin when possible, and push back 
when necessary. This formula sounds reasonable, but I worry 
that it provides neither the strategic vision nor the practical 
framework to deal with a Kremlin that has repeatedly and 
successfully outmaneuvered the West in recent years.
    Mr. Putin has successfully exploited the differences in the 
Euroatlantic community for the past several years. But with new 
leadership in several of our key European capitals, it is time 
to forge a new common strategy for dealing with Russia.
    When the United States and Europe come together around a 
single cogent policy, we have a long and successful track 
record for managing relations with Moscow. A joint United 
States-European approach would not, and should not, constitute 
a threat to Russia. Indeed, I believe the principal goal of 
such an effort should be to refocus the Kremlin on all that 
Russia stands to gain from working with the West, and all it 
stands to lose by sticking to its zero-sum mentality that it 
seems to be gripped by now.
    The West needs to offer a clear vision of the positive role 
Russia could and should play as a leader in the international 
community. We need to devise incentives that will recognize and 
reward Moscow's efforts to deal responsibly with the many 
common challenges we face. Conversely, if Russian leaders 
continue pursuing zero-sum diplomacy, then it's time we address 
the issue together with our allies.
    I look forward to our discussion on these and many other 
questions, and I hope it will yield ideas for how to manage 
this critical relationship in the future.
    I now yield to my colleague Chairman Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
join you in welcoming this opportunity for the committee to 
examine United States-Russian relations.
    In recent months, newspaper stories have speculated about 
whether our relations with Russia were descending to the point 
where the cold war would return. Clearly, Washington and Moscow 
have disagreed on many topics lately. We have disputed aspects 
of policy related to energy security, missile defense, the 
Conventional Forces in Europe Treaty, the Intermediate Range 
Nuclear Forces Treaty, democracy in general, human rights, 
Iran, Kosovo, Georgia, Moldova, and other items.
    While Americans prepare to celebrate Independence Day, 
President Bush will be hosting Russian President Vladimir Putin 
in Kennebunkport, Maine, and I applaud the President and his 
efforts to engage his Russian counterpart. I encourage him to 
do so even more regularly. The Kennebunkport meeting will not 
resolve all disputes, but establishing a commitment to 
diplomacy is important. The United States-Russia relationship 
is critical to the security and prosperity of the international 
community. Kennebunkport provides an opportunity for the two 
Presidents to give direction to their bureaucracies and to lead 
our countries toward a stronger partnership.
    During the last 15 years, United States-Russian 
relationships have gone through geopolitical roller-coaster 
rides, but, throughout the highs and lows, both sides have 
understood that our work confronting the dangers of weapons of 
mass destruction was too important to be sidelined. We have 
worked together to implement nuclear and chemical arms-control 
treaties. The two countries cooperated closely in the 
denuclearization of Ukraine, of Belarus, and Kazakhstan, and, 
through the Nunn-Lugar Cooperative Threat Reduction Program, we 
have dismantled more than 2,000 intercontinental missiles, we 
eliminated 1,000 missile launchers, deactivated 7,000 nuclear 
warheads. In addition, our experts have worked together to 
remove nuclear material from vulnerable locations around the 
world, and to secure it in Russia. Such cooperation provides a 
foundation on which to rebuild trust and confidence.
    I urge the Presidents to solidify new areas of cooperation 
on weapons of mass destruction. First, the United States and 
Russia must extend the START I Treaty's verification and 
transparency elements, which will expire in 2009, and they 
should work to add verification measures to the Moscow Treaty. 
Unfortunately, some bureaucrats on both sides are balking at 
such efforts in favor of less formal language that is not 
legally binding. I am concerned that transparency and 
verification will suffer if legally binding regimes are 
permitted to dissolve. The predictability and confidence 
provided by treaty verification reduces the chances of 
misinterpretation, miscalculation, and error.
    The current U.S. policy is at odds with the Bush 
administration's assurances to Congress during consideration of 
the Moscow Treaty. Secretary Rumsfeld and others testified that 
the START regime would be utilized to bolster the Moscow 
Treaty, which did not include verification measures. The 
current Russian-American relationship is complicated enough 
without introducing more elements of uncertainty into the 
nuclear relationship.
    A second area of cooperation relates to the coming surge in 
global demand for nuclear power, which may provide a pretext 
for more nations to seek their own nuclear enrichment 
facilities. The spread of this technology to additional states 
poses long-term risks for both the United States and Russia. 
While the technology may be intended to produce reactor fuel, 
it can also produce materials for nuclear weapons. Both 
Presidents have offered plans to establish nuclear fuel 
assurances.
    Senator Biden and I have introduced Senate bill 1138, which 
proposes that countries who give up their enrichment and 
reprocessing programs have an assurance, either bilateral, 
multilateral, or both, of nuclear reactor fuel at reasonable 
prices. Under such a regime, nations would be prohibited from 
using the template of nuclear energy to develop nuclear 
weapons. I remain hopeful that the chairman will hold a hearing 
on this important subject.
    Now, third, the United States and Russia should be 
exploring how the Nunn-Lugar experience can be applied to North 
Korea. While difficult diplomatic work remains, we must be 
prepared to move forward quickly if the six-power talks 
succeed. The Nunn-Lugar program would have a different 
orientation in North Korea than it does in the former Soviet 
Union, but the program has the authority, flexibility, and 
experience to adapt to the Korean situation. Equally important, 
Moscow and Washington have proven that former enemies can work 
together to achieve shared security benefits. Such a track 
record will be critical to a successful diplomatic process on 
the Korean Peninsula.
    Fourth, Russia and the United States must come together to 
address the threat posed by Iran's nuclear weapons program. For 
too long, our governments have been at odds over how to respond 
to Tehran's behavior. The differences in our approaches have 
narrowed recently, and there are prospects for continued 
cooperation between Moscow and Washington within the U.N. 
Security Council. I am hopeful this renewed collaboration will 
extend to missile defense, as well.
    Other subjects must be discussed at Kennebunkport, but 
weapons of mass destruction remain the No. 1 national security 
threat to the United States and to Russia. Success in this area 
would enhance international security and improve the prospects 
of United States-Russian cooperation in other policy areas.
    This year is the 200th anniversary of United States-Russian 
bilateral relations and the 15th anniversary of the Nunn-Lugar 
program. These anniversaries provide an occasion for both 
Moscow and Washington to rededicate themselves to a close 
partnership to address common challenges.
    And I join in welcoming our very distinguished witnesses, 
each of whom has been a very good friend of our committee, and 
I look forward to their testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    With the indulgence of my colleagues, I would like to do 
two things. One, I would like to make an additional brief 
statement, 2 minutes, and we'll have 7-minute rounds.
    Let me emphasize, Mr. Secretary, what Senator Lugar said. I 
think there's a dangerous drift in the way in which we deal 
with the notion of strategic weapons. The lack of regard on the 
part of this administration for the Moscow Treaty is 
frightening. It is my understanding that START is set to 
expire. The next President of the United States is going to 
have less than a year to have to deal with this. And what I see 
is counterproductive actions on the part of this 
administration. Moscow appears to be willing to reduce the 
number of strategic nuclear warheads below the Moscow Treaty 
levels, limit systems, as well as warheads, and is looking for 
verifiability and transparency. I hope what I'm hearing about 
the administration's attitude toward this is incorrect.
    Second--and I want to reemphasize--this Nation owes Senator 
Lugar an incredible debt, along with Senator Nunn. There are 
700 to 1,400 tons of highly enriched uranium in Russia--700 to 
1,400. We're talking about worrying about Iran having 3,000 
centrifuges running for a year, getting 25 kilograms--we're 
talking about going to war over 25 kilograms--that that's what 
these centrifuges could produce in a year if they run. And 
you've got 700 to 1,400 tons of highly enriched uranium, over 
100 tons of plutonium. And, according to Russian security 
officials, only about 30 percent of that amount of material is 
secured.
    So, we've got a lot to talk about, Mr. Secretary. But let 
me also state, at the outset, I have great respect for you. 
You've served in administrations, and you know a lot about this 
subject. We're thankful that you're prepared to come before the 
committee.
    And I will now yield for your testimony, and then we'll go 
to questioning. Thank you very much.

    STATEMENT OF HON. DANIEL FRIED, ASSISTANT SECRETARY FOR 
EUROPEAN AND EURASIAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Ambassador Fried. Thank you, Chairman Biden, Ranking Member 
Lugar, Senators. I appreciate the invitation to appear before 
you.
    Russia is a great country, and one with which we must work. 
We have significant areas of common interest, we have 
significant differences. We are in a complicated period in 
relations with Russia, and so, this hearing is well timed.
    Our strategic approach to Russia means that we defend and 
advance our interests while building on areas of common 
concern, as we have done. It means we must find the right 
balance between realism about Russia and the higher realism of 
commitment to defend and advance our values.
    Russia today is not the Soviet Union. As President Bush has 
said, the cold war is over. But the world has recently 
witnessed statements and initiatives from Russia that puzzle 
and concern us. In the past few months, Russian leaders and 
senior officials have threatened to suspend Russia's 
obligations under the CFE Treaty, criticized United States 
plans for a modest missile defense system, attacked United 
States agreements with Romania and Bulgaria to establish joint 
training facilities in those countries, and resisted a 
realistic prompt resolution of Kosovo's final status.
    These and other policy concerns have been accompanied by an 
inconsistent, but worrying toughening of Russian rhetoric about 
the United States and the outside world. And all this occurs 
against a background of steady deterioration of democratic 
practices within Russia.
    Yet, in other critical areas, our cooperation is advancing. 
These include nonproliferation, including nuclear 
nonproliferation; cooperation on North Korea, and, in general, 
Iran; counterter-rorism--and here, I would like to note Senator 
Biden's important proposal to create an international nuclear 
forensics library; cooperative threat reduction efforts which 
result from Nunn-Lugar legislation; the NATO-Russia Council, 
and the WTO accession process.
    Against this complex background, President Bush and 
President Putin will meet in Kennebunkport, a venue intended to 
allow the leaders to step back, consider how to avoid 
rhetorical escalation, and concentrate on a common agenda.
    Many ask why Russia has sharpened its rhetoric. While 
Russia's electoral season may play a role, there may be deeper 
causes having to do with Russia's view of its recent history 
and its place in the world.
    Most in the United States and Europe saw the end of 
communism and breakup of the Soviet Union as an extension of 
the self-liberation of Eastern Europe starting in 1989. We 
hoped that Russia, liberated from communism and the imperative 
of empire, would follow the same pattern. But many Russians see 
the 1990s as a decade of decline and chaos. Many have bitter 
memories of that time: The wiped-out savings, the increasing 
dysfunctionality of the state, the rise of corrupt oligarchs. 
Many Russians associate these internal problems with democracy 
and reform, and also link them with the trauma of perceived 
external retreat. In Russia, the perception exists that the 
collapse of the Soviet Bloc undid Russia's political gains in 
Europe in the 20th century, and that the dissolution of the 
Soviet Union undid much of Russia's territorial expansion from 
the mid-17th century.
    In fact, the 1990s brought about a Europe, whole, free, and 
at peace, working with the United States, and with Russia 
welcome to play its part as a valued partner. In the view of 
many Russians, however, the European order that emerged in the 
1990s was imposed on a vulnerable Russia. Many Russians cite 
NATO enlargement, the pro-Western orientation of Georgia and, 
to some extent, Ukraine, and the unqualified and enthusiastic 
integration of the Baltics, and even Central Europe, into the 
Euroatlantic community as an affront. For many Russians, this 
order is unjust and something to be challenged, and perhaps 
revised.
    In Russian history, periods of domestic disorder ended with 
the reemergence of strong rulers. President Vladimir Putin is 
often seen by Russians in this context, as a popular restorer 
of order and a state-builder. President Putin's popularity 
appears partly related to Russia's new wealth, generated in 
part by high world prices for oil and natural gas. But Russians 
also see him as a leader who has halted Russia's international 
retreat and sought to reverse it.
    Mr. Chairman, to understand is not necessarily to agree. 
The United States does not regret the end of the Soviet Bloc. 
The United States does not believe that any nation has the 
right to a sphere of influence over unwilling countries. My 
purpose is not to justify, but to explain, and this may provide 
context for current Russian-American relations and some recent 
Russian rhetoric and actions.
    President Bush and the administration have avoided a 
rhetorical race to the bottom. We have sought to address 
problems in a constructive spirit wherever possible, while, at 
the same time, remaining firm in defense of our principles and 
our friends. The administration seeks to protect and advance 
the new freedoms that have emerged in Eastern Europe and 
Eurasia in parallel with the development of partnership with 
Russia. Nevertheless, Russia's historical view seems to affect 
its relations with the world and the United States, especially 
in the region close to Russia. Zero-sum thinking is evident in 
Russian allegations that United States plans to establish 
rotational training facilities in Romania and Bulgaria are a 
potential threat to Russia and constitute permanent stationing 
of substantial combat forces. They charge that these plans 
violate the NATO-Russia founding act. Neither is true, however.
    Last April 26, President Putin suggested that he would 
consider suspending Russia's implementation of the CFE Treaty. 
At the Extraordinary Conference on CFE in Vienna last week, 
which I attended as head of delegation, we and our allies 
stated that we regard CFE as a cornerstone of European 
security. We will work to address Russia's problems, but not at 
the expense of the integrity of the treaty regime. Russia has 
reacted with hostility to plans by the United States to place 
elements of a limited missile defense system in Poland and the 
Czech Republic, intended to protect us and our allies from 
threats from the Middle East.
    At the G-8 summit, President Putin proposed that the 
Russian-operated radar in Azerbaijan be used jointly for 
missile defense purposes. This promising proposal implicitly 
acknowledged the potential ballistic missile threat from Iran, 
though recent statements from Russia are mixed. We look forward 
to discussions.
    In Kosovo, a U.N.-mandated negotiating process led by 
Martti Ahtisaari has concluded that the only solution is 
internationally supervised independence for Kosovo. We now seek 
a U.N. Security Council resolution to bring into force 
Ahtisaari's plan. The status quo is not stable. U.S. and 
European troops under NATO must not be put into an impossible 
position.
    In rejecting independence, Russia suggests that a Kosovo 
solution will constitute a precedent leading to the recognition 
of the independence of Abkhazia, South Ossetia, and 
Transnistria. We've made clear that these are very different 
situations.
    Russia's energy resources constitute a source of national 
wealth, but also leverage, in its region, and perhaps beyond. 
Last month, the Presidents of Russia, Kazakhstan, and 
Turkmenistan issued a declaration pledging to cooperate on 
increasing natural-gas cooperation and development. This 
declaration attracted misplaced speculation. In reality, it 
need have no direct impact on U.S. Government efforts to 
develop multiple gas pipelines from the Caspian region to 
Europe. We do not believe in monopolies, but in competitive, 
open markets. We seek an open and cooperative energy 
relationship with Moscow. The United States also strongly 
supports Russia's WTO accession and seeks prompt graduation of 
Russia from Jackson-Vanik restrictions.
    Russia's relations with its neighbors, Europe, and the 
United States, take place alongside of broader troubling trends 
within Russia itself. Increasing pressure on journalists is 
especially troubling. Most television networks are in 
government hands or owned by allies of the Kremlin. Attacks on 
journalists, including the murders of Paul Klebnikov and Anna 
Politkovaskaya, among others, chill the media.
    The United States and its European allies continue to 
support Russian democracy and civil society. We are not, 
charges to the contrary, seeking to interfere in Russia's 
domestic political development. We will, however, always stand 
for the advance of freedom and democracy. America and most of 
Europe abandoned, some time ago, the notion that the internal 
character of nations was none of our business.
    Mr. Chairman, we will be working with a more assertive 
Russia for some time. We welcome a strong Russia, but one that 
is strong in 21st-century, not 19th-century, terms. A modern 
nation needs strong, democratic institutions and civil society 
groups. A truly strong and confident nation has respectful 
relations with sovereign neighbors. We must remain steady. And, 
as a steady country, we must work with our European partners to 
devise common approaches. We cannot give way to lurches of 
exaggerated hopes followed by exaggerated disappointment. We 
must simultaneously advance our interests and values, pushing 
back when necessary, while seeking to broaden and deepen 
cooperation with Russia.
    Mr. Chairman, Senator Lugar, members of the committee, 
three American administrations have achieved much in Europe and 
with Russia since 1989. I hope we can take lessons from our 
successes, as well as learn our lessons about continuing 
challenges. And I look forward to your questions.
    Thank you for your attention.
    [The prepared statement of Ambassador Fried follows:]

 Prepared Statement of Hon. Daniel Fried, Assistant Secretary of State 
 for European and Eurasian Affairs, Department of State, Washington, DC

    Chairman Biden, Ranking Member Lugar, members of the committee, 
thank you for inviting me to appear before you to discuss Russia and 
U.S.-Russia relations.
    Russia is a great country; one we must work with on important 
issues around the world. We have significant areas of common interest 
and want to build on these. We also have significant differences with 
certain policies of the current Russian Government. This hearing is 
well timed, because we are in a more complicated period in our 
relations with Russia than we've been in some time.
    Our differences notwithstanding, Russia today is not the Soviet 
Union. As President Bush has said, the cold war is over. But the world 
has witnessed a series of statements and initiatives from Russian 
officials in recent months that have left us puzzled and in some cases 
concerned.
    In the past few months, Russian leaders and senior officials have, 
in quick succession:

  <bullet> Threatened to suspend Russia's obligations under the Treaty 
        on Conventional Armed Forces in Europe, the CFE Treaty;
  <bullet> Criticized U.S. plans for a modest missile defense system 
        based in Europe and rejected our explanation that it is 
        intended to counter potential threats from Iran, only to 
        propose missile defense cooperation in Azerbaijan;
  <bullet> Attacked U.S. agreements with Romania and Bulgaria to 
        establish joint training facilities in those countries, even 
        though this would involve no permanent stationing of U.S. 
        forces;
  <bullet> Left the impression that there's no will to find a 
        realistic, prompt resolution of Kosovo's final status;
  <bullet> Threatened the territorial integrity of Georgia and Moldova 
        by giving renewed support to separatist regimes and issuing 
        veiled threats to recognize breakaway regions in those 
        countries;
  <bullet> Further restricted freedom of assembly and association by 
        preventing peaceful demonstrations as well as hindering the 
        operation of organizations such as Internews.

    These and other policy concerns have been accompanied by an 
inconsistent but still worrying toughening of Russian rhetoric about 
the United States, Europe, and some of Russia's neighbors. The Russian 
media--increasingly state controlled--frequently paint an ``enemy 
picture'' of the United States. We have seen Russian efforts to 
strengthen monopoly control over energy resources in Central Asia and a 
willingness to use this control for political purposes. All these 
concerns, moreover, occur against a background of a steady 
deterioration of democratic practices within Russia.
    In this context, some observers have suggested that Russia's 
relations with the West are at a post-cold-war low. Yet in other 
critical areas, our cooperation is advancing. These include:

  <bullet> Nonproliferation (including nuclear);
  <bullet> North Korea and Iran;
  <bullet> Counterterrorism and Law Enforcement--and here I'd like to 
        commend Senator Biden for his proposal to create an 
        international nuclear forensics library;
  <bullet> Cooperative Threat Reduction efforts, which result from 
        Nunn-Lugar legislation;
  <bullet> NATO-Russia Council (including the Status of Forces 
        Agreement recently approved by the Russian Duma and President 
        Putin);
  <bullet> Some investment and business opportunities; and
  <bullet> Progress in negotiations on Russia's accession to the World 
        Trade Organization, including conclusion of our bilateral WTO 
        market access agreement in November 2006.

    Against this complex background, President Bush and President Putin 
will meet in Kennebunkport, a venue intended to allow the leaders to 
step back, consider how to avoid rhetorical escalation, and concentrate 
on a common agenda for efforts against common threats and to achieve 
shared goals.
    Many ask why Russia has sharpened its rhetoric in the last few 
months. While Russia's impending electoral season may play a role, 
there may be deeper causes having to do with Russia's view of the world 
and its history over the past 16 years--that is, since the end of the 
Soviet Union.
    Most people in the United States and Europe saw the end of 
communism and the breakup of the Soviet Union as an extension of the 
self-liberation of Eastern Europe starting in 1989. In these countries, 
regained national sovereignty was accompanied by difficult, painful, 
but generally successful political and economic reforms. It was also 
associated with the emergence of democratic, free market systems that 
are fully part of the Euroatlantic community. We had hoped that Russia, 
liberated from communism and the imperative of empire, would follow the 
same pattern.
    But the Russian Government and official media, and to a significant 
extent Russian society, see the 1990s as a decade of domestic decline 
and chaos. Many have bitter personal memories of the hardships of the 
1990s: The wiped-out savings; the increasing dysfunctionality of the 
state; the rise, especially after 1996, of massively corrupt and 
massively rich ``oligarchs.'' Many Russians associate these problems 
with ``democracy'' and ``reform'' and see these domestic traumas 
through the external trauma of retreat. In Russia the perception exists 
that the collapse of the Soviet Bloc undid Russia's political gains in 
Europe in the twentieth century, and that the dissolution of the Soviet 
Union undid much of Russia's territorial expansion from the mid-17th 
century.
    In fact, the 1990s brought about an Europe, whole, free, and at 
peace, working with the United States in the wider world, with Russia 
welcome to play its part as a valued and respected partner. In the view 
of many Russians, however, the European order that emerged in the 1990s 
was imposed on a weak, vulnerable Russia. Many Russians cite NATO 
enlargement, the pro-Western orientation and aspirations of Georgia and 
to some extent Ukraine, and the unqualified and enthusiastic 
integration of the Baltics and even Central Europe into the 
Euroatlantic community, as an affront. They seem to hold the 
development of military relations between the United States and 
countries of the former Warsaw Pact and Soviet Union as a painful 
reminder of a period of weakness. They view the support of the United 
States and European Union for the Euroatlantic aspirations of former 
Soviet states with suspicion.
    This order was, in the view of many Russians, unjust; a function of 
a latter day ``Time of Troubles'' to be challenged and to some extent 
rolled back. We are witnessing a backlash.
    The 1990s, in this narrative, are a modern-day ``Time of Troubles'' 
for Russia: A period of weakness with antecedents to Russia's past. In 
Russian history, periods of disorder ended with the reemergence of 
strong rulers who restored Russian power. In this current case, 
President Vladimir Putin is often seen as a restorer of order and a 
state builder, and on the international stage, as a leader who has 
halted national retreat and sought to reverse it. Russians attribute to 
Putin a return to national pride.
    The United States does not believe any nation has the right to 
impose a sphere of influence on unwilling countries. We do not miss the 
end of the Soviet bloc but celebrate the fact that Central and Eastern 
Europeans gained their freedom after 1989. We welcome the states of 
Eurasia into the family of nations that can choose their own destinies 
and associations. My purpose is not to justify, but to explain, the 
sources of Russian behavior.
    President Putin's popularity appears to be a function of Russia's 
new wealth--spectacularly concentrated in a small class of super rich 
Russians but spreading beyond to a growing middle class. This rising 
wealth is generated in part by high world prices for energy. In fact, 
much of Russia's new confidence and assertiveness is underpinned by 
this new affluence. High prices for oil and natural gas are not just 
bankrolling the government. Because of the dependence of many 
surrounding states on Russian energy supplies provided by Russian 
state-owned companies, the new riches give Russia greater influence.
    Russia's current political situation is also influenced by the lack 
of a free media or robust opposition that would critique and critically 
analyze the government's performance. Russian citizens who want a wider 
view must make an extra effort to find such opinions in the remnants of 
the free press and local electronic media or on the Internet.
    This is the context for Russia's relations with the United States, 
some of its neighbors, and Europe. We do not share many elements of the 
Russian view of recent history, but it is important to understand the 
Russian mindset, which may account for some of the current rhetoric 
coming from Moscow.
    President Bush and the administration have avoided a rhetorical 
race to the bottom as we approach our relationship with Russia. We have 
sought to address problems in a constructive spirit wherever possible 
while at the same time--and this is important--remaining firm in 
defense of our principles and friends. Strategically, the 
administration seeks to protect and advance the new freedoms that have 
emerged in Eastern Europe and Eurasia, and to do so in parallel with 
the development of a partnership with Russia.
    We want to address problems around the world where we have common 
interests. Indeed, much of Russia's recent rhetoric about the United 
States is harsher than the reality of our cooperation. In our efforts, 
both to develop partnership with Russia and deal with challenges from 
Russia, we are working with our European allies. Given the Russian mood 
that I have described, this will take time and strategic patience in 
the face of problems and pressure. It will require steadiness on our 
part and that of our European allies, and steadfast adherence to 
fundamental principles.
    Nevertheless, the historical forces that I have laid out have had a 
deep impact on Russia's relations with the world.
    They may explain, for example, why the Russians have alleged that 
U.S. plans to establish rotational training facilities in Romania and 
Bulgaria are a potential threat to Russia and constitute permanent 
stationing of substantial combat forces. They charge that these plans 
thus violate political commitments made in the NATO-Russia Founding 
Act, signed in 1997.
    Neither is true, of course. Our plans do not involve substantial 
combat forces, nor would U.S. forces be permanently stationed in those 
countries. Our plans are for periodic rotational training deployments 
of one brigade combat team. This is no threat to Russia, which has the 
largest conventional military forces on the continent, nor is it 
intended to be. Training and temporary movement of brigade-size units 
to Bulgaria and Romania can hardly threaten Russia.
    Last April 26, the day of a NATO Foreign Ministers and NATO-Russia 
Council meeting in Oslo, President Putin suggested he would consider 
suspending Russia's implementation of the Conventional Forces in Europe 
Treaty (CFE) if no progress were made on ratification of the Adapted 
CFE Treaty by NATO Allies.
    This declaration triggered immediate concern that Russia intended 
to weaken or even end this highly successful multilateral arms control 
regime. At the NATO Foreign Ministers meeting, and last week at the 
Extraordinary Conference on CFE in Vienna, which I attended as head of 
delegation, the United States and its allies made the point that we 
regard the CFE regime as the cornerstone of European security; that we 
welcome the opportunity to address Russia's concerns about the treaty; 
and that we are eager to ratify the Adapted CFE Treaty. We also made 
clear, however, that we looked for Russia to fulfill the commitments it 
made when we signed the Adapted CFE in 1999 in Istanbul, including the 
withdrawal of Russian forces that are in Georgia and Moldova without 
those governments' consent.
    The United States and our allies are prepared to be creative in 
helping Russia meet its Istanbul commitments and open to addressing 
Russia's concerns about the Adapted CFE Treaty. We hope that Russia 
will work with us, and not simply make ultimatums and withdraw from the 
treaty, damaging European security to no good end.
    For many weeks, Russia chose to react with skepticism verging on 
hostility to plans by the United States to place elements of a limited 
missile defense system in Poland and the Czech Republic. This modest 
system is intended to protect the United States and its European allies 
against missile threats from the Middle East. We have sought to address 
Russian concerns through more than 18 months of consultations, seeking 
to assure Russia that this system cannot possibly damage their own 
nuclear force.
    We have also sought Russian cooperation on missile defense. for 
many years and last April proposed a comprehensive package of 
suggestions for cooperation across the full spectrum of missile defense 
activities.
    At the G-8 summit 2 weeks ago in Germany, President Putin put forth 
his own ideas for missile defense cooperation. Meeting with President 
Bush, President Putin proposed that the ``Gabala'' Russian-operated 
radar in Azerbaijan be used jointly for missile defense purposes. The 
proposal acknowledged the potential ballistic missile threat from Iran 
and the need to protect Europe, Russia, and the United States from such 
a threat.
    We look forward to discussing with Russia all ideas for missile 
defense cooperation. Europe, the United States, and Russia face a 
common threat and should seek common solutions. Of course, any U.S.-
Russia discussions regarding the use of the existing Azerbaijani radar 
for missile defense purposes would be done in full consultation and 
cooperation with the government of Azerbaijan.
    Finding a solution for the status of Kosovo constitutes one of the 
most acute problems in Europe today, and one in which Russia's position 
will make a critical difference. The stakes are high. Resolution of 
Kosovo's status is the final unresolved problem of the breakup of 
former Yugoslavia. Eight years after NATO forces drove out the 
predatory armies of the nationalist Milosevic regime, a U.N. Envoy for 
Kosovo Status, former Finnish President Marti Ahtisaari, has concluded 
that the only solution is Kosovo's independence, supervised by the 
international community, and with detailed guarantees, enforceable and 
specific, to protect Kosovo's Serbian community. The comprehensive plan 
developed by President Ahtisaari has the full support of the United 
States and Europe.
    We now seek a U.N. Security Council Resolution to bring into force 
Ahtisaari's Plan and pave the way for Kosovo's supervised independence. 
Russia played an important and constructive role in framing the 
Ahtisaari Plan, which in fact meets Russia's concerns about protection 
of Kosovo's Serbian community and Serbian Orthodox religious sites. We 
are eager to find a solution at the Security Council that Russia can 
support. But further delay and endless negotiations will not solve the 
problem. And we must solve it, because the status quo is not stable. 
U.S. and European troops under NATO are keeping the peace but must not 
be put into an impossible position.
    So far, Russia continues to reject any solution that is not 
approved by Serbia, even the creative compromise suggested by French 
President Nicholas Sarkozy at the G-8; and Serbia has made clear that 
it will never agree to Kosovo's independence. Moreover, Russia suggests 
that a Kosovo solution involving independence will constitute a 
precedent leading to the recognition of the independence of Abkhazia, 
South Ossetia, and Transnistria, as well as drive separatist movements 
elsewhere around the globe.
    We believe that such a position is destabilizing and reckless. 
Kosovo is a unique situation because of the specific circumstances of 
Yugoslavia's overall violent and nonconsensual breakup, the existence 
of state-sponsored ethnic cleansing, the threat of a massive 
humanitarian crisis bringing about NATO intervention to prevent it, and 
subsequent U.N. governance of Kosovo under a Security Council 
resolution that explicitly called for further decisions on Kosovo's 
final status. It constitutes no precedent for any other regional 
conflict anywhere in the world.
    We will move forward. As President Bush said in Tirana on June 10, 
``I'm a strong supporter of the Ahtisaari plan . . . [T]he time is now. 
. . . [W]e need to get moving; and . . . the end result is 
independence.''
    Delay or stalemate will likely lead to violence. Russia can yet 
play a helpful role.
    Let me be clear. There is no linkage or similarity between Kosovo 
and Georgia's breakaway provinces of Abkhazia and South Ossetia, and 
Moldova's breakaway Transnistria region. That said, we want to work 
with Russia to help resolve these conflicts peacefully. Russian-
Georgian relations, after a period of extreme tension, have shown 
tentative signs of improvement, but we hope that Moscow does more to 
normalize relations. Russia should end the economic and transportation 
sanctions it imposed against Georgia last fall.
    For its part, Georgia needs to continue to avoid provocative 
rhetoric and to pursue exclusively peaceful and diplomatic means of 
resolving the separatist conflicts, as indeed it has for some time now. 
Moscow should recognize that a stable, prospering Georgia is surely a 
better neighbor than the alternative.
    We do not believe that Georgia's Euroatlantic aspirations, or 
Ukraine's, need drive these countries from Moscow; we do not believe in 
a zero-sum approach or that these countries must chose between good 
relations with Moscow and the Euroatlantic community.
    Russia's energy resources, and its position as transit country for 
the energy resources of Central Asian states, constitute a source of 
national wealth and a potential source of political power and leverage 
for Russia in its region. We have seen this demonstrated in the case of 
Ukraine in 2006. Russia also faces growing domestic demand for energy 
and thus needs massive investment and technology even to maintain 
current production levels. At the same time, and somewhat 
inconsistently, Moscow seems to want to circumscribe foreign presence 
in its energy sector and maintain its near-monopoly over Central Asian 
energy exports to Europe. Thus, Russia's energy policy sends mixed 
signals to its foreign partners as Moscow seeks to balance these 
competing demands.
    For our part, we seek an open and cooperative energy relationship 
with Moscow and have sought to use our bilateral energy dialogue, 
launched with high hopes in 2003, to this end. We have enjoyed some 
successes, such as the ConocoPhillips-Lukoil deal, the success of 
ExxonMobil in Sakhalin-1 in Russia's Far East, and the continued 
presence of U.S. energy services companies in Western Siberia and the 
Volga-Urals. But recent state pressure on foreign energy investors has 
limited the scope for cooperation.
    The Caspian region is ripe for further energy development. The key 
question is what form this will take. Russia will be a major player in 
Central Asia's energy sector under any scenario. We believe that 
Central Asian countries would be wise to court more than one customer 
and more than one source for energy transport. The U.S. Government does 
not support monopolies or cartels. We believe in competitive markets 
for energy and transport of oil and gas. America's Eurasian energy 
security policy promotes diversification, and that includes efforts to 
advance reliable, long-term flows of natural gas from the Caspian 
region to European markets.
    Last month, the Presidents of Russia, Kazakhstan, and Turkmenistan 
issued a declaration pledging to cooperate on increasing natural gas 
exports from Central Asia to Russia. This declaration attracted 
attention and misplaced speculation in the press. But in reality, the 
three Presidents' statement need have no direct impact on U.S. 
Government effort to develop multiple gas pipeline routes from the 
Caspian Sea region to Europe.
    We continue to convey the message that despite continued strong 
economic growth, Russia must look to the long-term and attract 
investment into its energy sector. Greater U.S. investment in this 
sector would serve the interests of both countries: American companies 
have the capital and high technology Russia needs to exploit many of 
its oil and gas fields.
    Although the investment climate has improved on some fronts, 
investment in Russia--in energy and other areas--presents a mixed 
picture. Many American companies are doing well in Russia and we wish 
them success. The best way to sustain Russia's development is through 
judicial reform to strengthen rule of law, banking reform to improve 
the capacity of the financial sector, accounting reform to promote 
greater transparency and integration into international business 
standards, improved corporate governance, and reduction of government 
bureaucracy.
    Following the bilateral market access agreement we signed last 
November, the United States strongly supports Russia's WTO accession. 
Russia is the largest economy remaining outside of the WTO, and there 
is still a considerable multilateral process to complete, but we 
believe it is important for Russia to become more integrated into the 
world economy.
    As we continue to work with Russia in the multilateral process, we 
are focusing on some key outstanding concerns, particularly on 
intellectual property rights (IPR), market access for beef, and 
barriers to trade in agricultural products (SPS issues). Russia will 
need to resolve all outstanding bilateral and multilateral issues 
before it accedes to the WTO. We hope this process, and also prompt 
graduation of Russia from Jackson-Vanik restrictions, can be completed.
    The complexities of Russia's relations with its neighbors, with 
Europe and with the United States reflect broader, negative trends on 
human rights and democracy in Russia itself. As President Bush said in 
his recent speech in Prague, ``In Russia, reforms that were once 
promised to empower citizens have been derailed, with troubling 
implications for democratic development.''
    Curtailment of the right to protest, constriction of the space of 
civil society, and the decline of media freedom all represent serious 
setbacks inconsistent with Russia's professed commitment to building 
and preserving the foundations of a democratic state. And these 
setbacks ultimately weaken any nation as well as the partnership we 
would like to have with Russia.
    The increasing pressure on Russian journalists is especially 
troubling. Vigorous and investigatory media independent of officialdom 
are essential in all democracies. In Russia today, unfortunately, most 
national television networks are in government hands or the hands of 
individuals and entities allied with the Kremlin. Attacks on 
journalists, including the brutal and still unsolved murders of Paul 
Klebnikov and Anna Politkovskaya, among others, chill and deter the 
fourth estate.
    Also deeply troubling, the Kremlin is bringing its full weight to 
bear in shaping the legal and social environment to preclude a level 
playing field in the upcoming elections. There have been many instances 
in which the authorities have used electoral laws selectively to the 
advantage of pro-Kremlin forces or to hamstring opposition forces.
    The ban on domestic nonpartisan monitors also seems to have been 
based on political criteria. The challenges to rights of expression, 
assembly, and association also run counter to a commitment to free and 
fair democratic elections. Last year, the Duma enacted amendments to 
the criminal and administrative codes redefining ``extremism'' so 
broadly and vaguely as to provide a potent weapon to wield against and 
intimidate opponents. Greater self-censorship appears to be a major 
consequence in this effort.
    Against this background, the United States and its European allies 
and friends continue to support Russian democracy and civil society. We 
speak out and reach out to civil society and the opposition, and will 
continue to do so. We also maintain an open dialogue with the Russian 
Government on these issues. We are not, charges to the contrary, 
seeking to interfere in Russia's domestic political affairs. Such 
charges of outside interference are as misplaced as they are 
anachronistic.
    We will, however, always stand for the advance of freedom and 
democracy. Russia's development of democratic institutions is not of 
marginal interest to us. America along with the rest of the 
international community, including Russia, some time ago abandoned the 
notion that the internal character of nations was none of our business. 
As the President said at the recent Prague summit on freedom and 
democracy, attended by representatives of Russia's democratic forces, 
expanding freedom is more than a moral imperative--it is the only 
realistic way to protect free people in the long run. The President 
recalled Andrei Sakharov's warning that a country that does not respect 
the rights of its own people will not respect the rights of its 
neighbors.
    The United States and the Euroatlantic community must accept that 
we will work with, and live with, a much more assertive Russia for some 
time to come. We welcome a strong Russia; a weak, chaotic, nervous 
Russia is not a partner we can work with or count on. But we want to 
see Russia become strong in 21st century and not 19th century terms.
    Some stabilization after the 1990s was inevitable and positive. But 
a modern nation needs more than a strong center. It needs strong 
democratic institutions: Independent regulatory bodies, independent and 
strong judicial organs, independent media and civil society groups. In 
this century, strength means strong independent institutions, such as 
the judiciary, the media, and NGOs, not just a strong center. And it 
means political parties that grow from and represent and reflect the 
interests of the entire citizenry, not merely those of a government 
bureaucracy or a small number of oligarchs. Russia's modernization may 
yet produce a property-owning class that will come to demand a 
different relationship with the state than Russians have traditionally 
known.
    In its foreign policy, a truly strong and confident nation has 
productive and respectful relations with sovereign, independent 
neighbors. Strength in this century means avoiding zero-sum thinking. 
It means especially avoiding thinking of the West in general and United 
States in particular as an adversary or independent neighbors as a 
threat. And we must avoid thinking of Russia as an adversary, even as 
we deal with serious differences.
    We must also remember the many areas where we continue to cooperate 
well with Russia. One of these is counterterrorism, where, sadly, the 
United States and Russia have been victims and where we enjoy strong 
cooperation. The U.S.-Russia Counterterrorism Working Group met last 
fall and will meet again in a few months. Its mission is to continue 
and deepen cooperation on intelligence, law enforcement, WMD, terrorist 
financing, counternarcotics, Afghanistan, U.N. issues, MANPADS, and 
transportation security. Under our Mutual Legal Assistance Treaty, we 
also work closely on transnational crime, which covers terrorism, but 
also addresses drug-trafficking and organized crime, human-trafficking 
and child exploitation, Internet fraud, and violent crime.
    Last year, the United States and Russia worked together to create 
the Global Initiative on Nuclear Terrorism. In the span of a year, over 
50 countries have joined the Global Initiative, which fosters 
cooperation and improves the abilities of partner nations to counter 
various aspects of nuclear terrorism. In that year, the United States 
and Russia have continued to work hand in hand on expanding the 
Initiative's scope and depth in what serves as a real example of 
bilateral cooperation.
    Our strategic cooperation is intensifying. Last year we renewed 
until 2013 the Cooperative Threat Reduction (CTR) program, which 
facilitates dismantlement of weapons of mass destruction in the former 
Soviet Union.
    We cooperate well on nuclear nonproliferation, both common global 
nonproliferation goals, and specifically to contain the nuclear 
ambitions of North Korea and Iran. Although Moscow has sometimes voiced 
disagreement with our approach to sanctions and other measures, Russia 
voted for U.N. Security Council Resolutions that impose sanctions on 
North Korea and Iran. The United States and Russia also participate 
productively in the Six-Party Talks on North Korea, and we and Russia 
are cooperating well on complex banking issues having to do with North 
Korea.
    We continue to pursue cooperation through the NATO-Russia Council, 
the NRC. We have a broad menu of cooperative NRC initiatives involving 
diverse experts on both sides, including Russian participation in 
Operation Active Endeavor and counternarcotics programs in Afghanistan. 
The Russian Duma's ratification of the Status of Forces Agreement 
(SoFA) with NATO opens up greater opportunities for cooperation.
    Despite the differences, then, cooperation between the United 
States and Russia is broad, substantive, and includes cooperation on 
critical, strategic areas.
    Our areas of difference are also significant.
    We face a complex period in relations with Russia, as I have said. 
The past months have been especially difficult and the issues that we 
face, Kosovo especially, may strain our relations.
    In this context, we must remain steady. We cannot give way to 
lurches of exaggerated hopes followed by exaggerated disappointment.
    The strategic response to the challenges presented by the Russia of 
today means defending our interests while building on areas of common 
concern, as we have done. It means finding the right balance between 
realism about Russia and the higher realism of commitment to defend and 
advance our values. It means offering the hand of cooperation and 
taking the high road wherever possible, but standing up for what we 
believe is right and in all cases working with our allies.
    The last three American Presidents have sought in various ways to 
find this balance. All faced the fact that relations with Russia cannot 
be resolved on a timetable or according to an agenda that we prefer. 
But since 1989 we have seen a cold war end, an empire dissolved, and 
the beginnings of partnership take root.
    Mr. Chairman, Senator Lugar, I hope we can take lessons from our 
successes as well as learn our lessons about continuing challenges.

    The Chairman. Thank you very much. I'm sure all of us have 
many questions, but we'll stick to 7 minutes on a first round.
    I have made no secret of the fact that I find the two 
witnesses we're going to have on our next panel two of the most 
insightful foreign-policy analysts of this generation, and I 
find myself in agreement with Mr. Brzezinski--and I'm going to 
unfairly and--characterize, summarize what I think is one of 
the elements of his argument. I'd like you to respond. He 
suggests, in the paper he submitted, that there is a new elite 
that's emerged in Russia, that Putin has surrounded himself 
with former KGB operatives in--from, sort of, top to bottom.
    And this new elite has embraced a--for a lot of reasons, 
some of which you referenced--a strident nationalism as a 
substitute for communism, and that the United States has been 
largely silent, in response to many of the actions that Russia 
is taking--because of our loss of legitimacy, with Guantanamo, 
and because of our inaccuracy about the war in Iraq. Our power 
has been viewed in diminished terms, because of us being tied 
down in Iraq. And that has produced a heightened need for us to 
seek Russia's support in, for example, Korea and Iran, where we 
otherwise would not have needed that much support. That has 
emboldened Russia to act with impunity in its geopolitical 
backyard--Georgia, Ukraine, Estonia, Lithuania, Central Asia.
    How do you respond to that broad assertion? Has our being 
tied down in Iraq, our conduct of our war on terror, put us in 
the position where we have diminished capacity to deal with 
Russia's aberrations under Putin?
    Ambassador Fried. At a first cut of an answer, I would say 
it is simply not true that we have been silent in the face of 
Russian pressure on some of its neighbors.
    The Chairman. But has it limited our efficacy when we've 
spoken?
    Ambassador Fried. I'd put it this way. I think, in the 
period 2003-2004, it weakened the dispute over Iraq, weakened 
transatlantic solidarity on other issues, and that was a very 
difficult period. It's a period when President Chirac, 
Chancellor Schroeder, were toying--seemed to be toying with the 
notion of Europe as a counterweight to the United States, and, 
in that context, it was harder to develop what you, sir, 
rightly say ought to be a common United States-European 
approach to Russia.
    However, since 2005, and since President Bush went to 
Europe, after his reelection, and reached out to Europe, that 
period has been put in the past. We're working very well with 
the Russians on some issues. We're working very well with the 
Europeans as we deal with Russian issues. We've been working 
with the Europeans on Baltic issues, on CFE, on issues of 
energy security.
    So, I think that the linkage that Professor Brzezinski 
makes is not accurate with respect to current United States-
European cooperation. And I'd like to cite Chancellor Merkel, 
who has managed to work with us very well while maintaining a 
somewhat critical position on other issues, such as Guantanamo.
    The Chairman. OK. I have a number of specific questions 
I'll submit for the record.
    [The information referred to above follows:]


      Responses to Additional Questions Submitted for the Record 
                 by Chairman Biden to Ambassador Fried

    Question. President Bush has made democracy promotion a defining 
rhetorical feature of his foreign policy and I assume that he's 
disappointed in Russia's regression toward authoritarianism. But when 
the President met with Mr. Putin on the margins on the G-8 Summit a few 
weeks ago, he reportedly didn't even mention the issue of democracy in 
Russia. Is that correct? If so, why not?

    Answer. President Bush has a strong relationship with President 
Putin that enables him to raise in their personal discussions important 
issues that concern the U.S. government, including the rollback of 
democratic reform in Russia.
    Moreover, President Bush has not shied from raising his concerns 
publicly, as he did in Prague on June 5, when he said, ``In Russia, 
reforms that were once promised to empower citizens have been derailed, 
with troubling implications for democratic development.''
    We raise our concerns on democracy and human rights with the 
Russian government, at many different levels and in many different 
fora. Our message is consistent and clear--adherence to democratic 
principles is part of the fundamental ``rules of the road'' in world 
society today. Russian democracy remains one of several very important 
issues in the U.S.-Russian bilateral relationship, and we continue to 
engage the Russian government on democracy and human rights at the 
highest levels of government and at the working level.


    Question. For the last several years, the Russians have proven very 
adept in dividing traditional allies within the Euro-Atlantic 
community. What are the prospects for forging a common approach to 
Russia now that there is new leadership in Germany, France and in the 
U.K.? What incentives could we offer Russia to act more responsibly at 
home, in its neighborhood and on issues of common concern like Kosovo 
and Iran? What leverage do we have to change Russian behavior if 
incentives do not work?

    Answer. Beyond managing current difficulties, we seek a long-term 
partnership with Russia. To achieve that goal, the United States and 
our traditional allies within the Euro-Atlantic community should 
cooperate with Russia when at all possible; push back when necessary; 
and at all times be realistic about Russia.
    In this regard, the United States is intensifying strategic 
dialogue with Russia, including on CFE, missile defense, and post-START 
arrangements. Secretaries Rice and Gates have agreed to a ``two-plus-
two'' format with their counterparts, suggested by the Russians, to 
consider these issues. We seek common approaches on missile defense, 
not rhetorical sparring.
    The booming Russian economy and huge energy resources ensure that 
Russia is a major player in the world economy, and the GOR is 
increasingly focused on being taken seriously in international economic 
fora, such as the G-8, WTO, among others. Engaging Russia in these 
fora, while insisting that it plays by the rules in them, can help 
induce changes in Russian behavior as Russia gradually conforms to 
international norms in these organizations. At the same time, we need 
to avoid thinking that we have great leverage and influence over Russia 
these days.
    We should approach Moscow as a friend and potential ally everywhere 
in the world, but we should not pay a price for cooperation, nor 
indulge Russia when it behaves as if a residual sphere of influence 
over its neighbors is its due.
    Europe and the United States should continue to speak out honestly 
and if necessary frankly about the use of political and economic 
pressure against smaller, vulnerable neighbors, such as Estonia and 
Georgia. Russia should recognize that it is in its own interest to 
cooperate constructively on issues of common concern like Kosovo and 
Iran.


    Question. In terms of changes in U.S. policy, what consequences has 
the Kremlin faced as a result of its many actions that threaten 
democracy and stability inside and outside of Russia? What consequences 
will the Kremlin face for using Russia's Security Council veto to 
prevent adoption of a UN Security Council resolution on Kosovo?

    Answer. We are concerned about domestic political developments in 
Russia in the past few years, particularly the concentration of power 
in the Kremlin. We hope that there will be free and fair elections--not 
just on election day but in the days leading up to the election 
providing space for media and civil society--for the Duma this December 
and for the Presidency in March 2008, though we are not under any 
illusions on this score. President Bush has discussed our concerns 
frankly and openly with President Putin, and we continually urge the 
Russian president to continue democratic reforms in his country. 
Furthermore, we expect Russia to be a responsible participant in 
international organizations such as the OSCE.
    We also consistently stress to the Russian government that the 
presence of stable and democratic neighbors around its borders is a 
positive development, one that should not feel threatening to Russia. 
We also insist that wherever democracies emerge, be it in Georgia, 
Ukraine or elsewhere, the United States will have good and sound 
relations with those countries.
    On Kosovo, the United States remains committed to working with our 
partners to find a peaceful solution. The United States supports the 
Troika-led negotiations process to find common ground between the 
parties. However, should there be no agreement by the December 10 
expiration of the Troika's negotiating mandate, we remain committed to 
the Ahtisaari Plan and internationally supervised independence as the 
best way forward. The status quo in Kosovo is not tenable and 
negotiations cannot continue indefinitely. We continue to stress to 
Russia that failing to find a timely solution will lead to instability 
in the region. All of us have a common interest in preventing new 
instability in southeast Europe.


    Question. Where does the administration think Russia will be in 
five or ten years? Where would you like Russia to be? To what extent 
will our current policy toward Russia allow us to bridge the gap 
between those answers?

    Answer. Russia is experiencing what will be a complicated period as 
it moves toward an expected transfer of power this year and early next. 
We are clear about what sort of Russia we want to see emerge from its 
unfinished transformation. We do not want a weak Russia. This does 
nothing for America. But a strong Russia must be strong in 21st 
century, not 19th century terms.
    In this century, a strong state must include a strong civil 
society, independent media, a strong independent judiciary, and a 
market economy regulated by independent state institutions. On this 
basis, a nation may build the rule of law, which makes a good life 
possible. A strong center is part of this healthy mix, but a strong 
center in a state of weak institutions, is not.
    Harnessing the Russian economy productively requires entwining it 
with the world economy, which is a goal that serves not only U.S. 
economic goals but also our geopolitical goals. Russia's membership in 
good standing in the WTO and OECD are two goals we hold out for Russia, 
in considerably shorter time (we hope) than five years out.
    Relations with Russia in the near term are likely to remain a 
complex mix of cooperation, some friction, and some perceived 
competition, but over time, we hope to strengthen and deepen our 
partnership. We cannot resolve all our differences immediately. But we 
can put relations with Russia on a productive and frank path.


    Question. Russia faces a host of serious threats to the country's 
future--demographic collapse, an insurgency in the North Caucasus, 
depopulation of the far east, and a failure to invest in the country's 
domestic energy infrastructure to name a few. How effective has the 
Russian government been in dealing with these challenges? Is the 
Kremlin attempting to manufacture conflict with the West in an effort 
to deflect attention away from these domestic problems?

    Answer. In recent months there has been an inconsistent, but still 
troubling, toughening of Russian rhetoric about the United States, 
Europe and some of its neighbors. Indeed, some observers have described 
Russia's relations with the West as at a post-Cold War low, and have 
asked why Russia is taking such an approach.
    It is, of course, possible that the increase in hostile rhetoric is 
simply the result of political campaigning in the lead-up to the 
December Duma and March 2008 Presidential elections. While likely an 
important piece of the puzzle, it is not the entire explanation, 
however.
    As you note, Russia is dealing with a number of domestic 
challenges. This, combined with Russia's experience since the collapse 
of the Soviet Union, has undoubtedly colored Russia's worldview. The 
Russian government, official media, and even many in Russian society, 
see the 1990s as a very difficult time, characterized by domestic 
decline, chaos, and weakness. Russia's financial collapse of 1998 added 
to the already considerable economic woes induced by almost a decade of 
transitional chaos. As Russia has emerged from that period in recent 
years, riding a wave of high oil prices and a subsequent economic boom, 
we have witnessed a backlash at home and assertiveness on the 
international stage, where Russia seeks to resume its role as a global 
leader.
    It is important to note, however, that while Russian rhetoric may 
be harsh, the reality of Russian cooperation with the United States is 
much different. The United States and our European allies are working 
hard to develop a stronger partnership with Russia. This work has borne 
fruit in a number of areas, including counterterrorism and counter 
narcotics. The U.S.-Russia business relationship is flourishing, with 
U.S. businesses reporting that some of their most profitable overseas 
investments are in Russia. It is important not to lose sight of the 
things that are going right in our relationship with Russia, while we 
at the same time hold the GOR accountable in areas where we wish to see 
improvement.


    Question. Corruption is reportedly endemic in Russia. What--if 
anything--is the Russian Government doing to combat it?

    Answer. Although President Putin has publicly pushed the fight 
against corruption to the forefront of the political agenda ahead of 
the upcoming Duma and presidential elections, it remains to be seen how 
serious will be the prosecution of high-level corruption, particularly 
given that the problem remains endemic in Russian society and a 
challenge within the Kremlin. At the end of 2006, the Russian Finance 
Ministry estimated that 26.1 percent of budget spending was being 
stolen by bureaucrats. In all the cost of corruption to business is 
estimated to be on the order of 10 percent of GDP and is rising to 
about $150 billion per year. According to Transparency International 
(TI), Russia scored 2.3 out of 10 this year, down from 2.5 in 2006, and 
indicating ``very serious'' levels of corruption. Of the 180 nations 
surveyed in TI's 2007 Corruption Perception Index, Russia took 143rd 
place (deteriorating from 121 in 2006), placing it on the same level 
with Indonesia, Gambia and Togo. The implication is that the Russian 
government's anticorruption efforts have not yet led to any measurable 
improvements. However, Russia did sign and ratify the UN Corruption 
Convention and has become a member of the Group of States Against 
Corruption, part of the Council of Europe, but again, implementation 
will be key. Russia's bid to accede to the OECD will require it to sign 
and implement the OECD Bribery Convention, which may give some impetus 
to Russia's anti-corruption efforts.
    Since the start of 2007, a growing number of high profile anti-
corruption investigations have been launched, as much to set an example 
to other bureaucrats as to catch wrong doers. Examples include Oleg 
Alekseev, deputy chief of the Federal Tax Service credit organizations 
department, and Alexei Mishin, a lawyer in the Central Bank's Moscow 
branch, who were both found to be abusing their position to demand tens 
of millions of bribes from banks to ``loose'' tax claims. Prime 
Minister-designate Viktor Zubkov--himself a veteran head of the Kremlin 
committee tasked to combat money laundering--stated in September that 
fighting corruption would be the main theme of his administration.
    An interdepartmental working group on tackling corruption has been 
preparing a package of anti-corruption legislation to be considered by 
the Russian National Security Council this fall. Putin, who sees a 
direct link between money laundering and financing of terrorism, has 
supported and presumably will continue to strongly support Zubkov's 
efforts. There is reason to be skeptical, however, that any government 
crackdown on corruption will affect anyone other than those at the 
lowest levels of government. To combat high-level corruption, Putin 
needs to anchor any resolve with action and results.


    Question. Prior to her assassination, Anna Politkovskya was widely 
known as one of the bravest voices for decency in Russia. While she 
never stressed the point, she was also an American citizen. What has 
the U.S. Government done to help identify the individuals responsible 
for her murder?

    Answer. The U.S. remains deeply concerned about the murder of Anna 
Politkovskaya and other journalists in Russia.
    We have repeatedly called for vigorous investigations of her 
murder, and urged the Russian authorities to pursue all those 
responsible. We are disturbed that those responsible for her murder 
have not yet been brought to justice. We continue to monitor the course 
of the investigation, will press for progress as necessary, and stand 
ready to assist, should Russian government authorities so request.
    Ms. Politikovskaya was a true Russian patriot who worked to build a 
better Russia through her reporting. It is important that those 
responsible for her murder be brought to justice. The intimidation and 
murder of journalists is an affront to democratic values and must not 
be tolerated.


    Question. As part of the Kremlin's opposition to the Bush 
Administration's plan to site missile defense installations in Europe, 
Mr. Putin has said he will suspend Russian compliance with the 
Conventional Forces in Europe treaty--a key arms control agreement. How 
seriously does the Administration view this threat? How do you intend 
to respond?
    Answer. The Russian Duma has begun the process of officially 
suspending Russia's participation in the CFE treaty, and is scheduled 
on October 9 to look at the first draft of the law suspending 
participation.
    The United States and its NATO allies have consistently advised the 
Russian government that we regard the CFE regime as the cornerstone of 
European security; that we welcome the opportunity to address Russia's 
concerns about the Treaty; and that we are eager to ratify the Adapted 
CFE Treaty. We have also made clear, however, that we expect Russia to 
fulfill the commitments it made when it signed the Adapted CFE Treaty 
in Istanbul in 1999. These commitments include the withdrawal of 
Russian forces that are in Georgia and Moldova without those 
governments' consent.
    The United States is ready to help Russia meet its Istanbul 
commitments. In addition, we are also open to addressing Russia's 
concerns about the Adapted CFE Treaty, and we will reiterate that 
message when Secretary Rice and Secretary Gates meet with their Russian 
counterparts at talks in Moscow in mid-October.


    The Chairman. But I'm trying to get a sense of the sort of 
factual basis that is the predicate for United States 
determinations relative to how to respond to these differences 
we have with Russia, and how we view the present circumstances 
of the Russian Government and Russian people.
    And three of the areas relate to the demographic collapse 
that I referenced, where the World Bank says that the 
debilitating decline in the Russian population is unprecedented 
among industrial nations. Without studying the statistics or 
the bad jokes you hear in the Kremlin, which are, you know--the 
jokes circulating in Moscow asks, ``What are the three most 
popular cars in Russia?'' And you know the answer: A Mercedes, 
BMW, and a hearse. And do we start off with the proposition--
with the premise that Russia does have a demographic collapse 
on its hands that has to be dealt with?
    Ambassador Fried. Demographic trends, until very recently, 
have been very bad for Russia; that is, the lowered life 
expectancy, less-than-replacement birthrate. Public health 
issues have been of great concern to the Russians, and the 
statistical basis for that is clear. I should add, as a 
footnote, that the--in the last year, some of these statistics 
have begun to turn around, so we have to withhold judgment 
about projecting into the future.
    What it means, if you think strategically, 15 or 20 years 
out, it may mean that Russia's current tensions with the United 
States and some of its neighbors are not necessarily the future 
that a future Russian leadership may look differently about 
Russia's priorities. A strong Russia may find its way, not by 
getting into wrangles with the United States, but by addressing 
some of these problems internally; at least that is to be 
hoped.
    The Chairman. Well, I have a number of other things I 
wanted to get into, but let me conclude by asking, Would you 
characterize, to the best of your knowledge, what the 
administration's present attitude is about extending and/or 
amending, or replacing, the START Treaty, which is due to 
expire in December 2009?
    Ambassador Fried. I'm not one of the experts on that. There 
are people who are working on it. We do want to work with 
Russia to develop a post-START regime. We want to maintain 
transparency. We want to maintain predictability. There are 
discussions going on with the Russians now about how to do 
that. There are ways--there's a--there are a range of options, 
some more formal and elaborate than others, but we certainly do 
want to have a predictable and confidence-building post-START 
regime.
    The Chairman. Well, I hope that the administration can at 
least give the next President the opportunity to deal with it 
by extending START. I think it would be the single greatest 
negative legacy this administration could leave, if it leaves 
us in a situation where there is no future architecture to 
follow on to START. I think this administration would be judged 
incredibly harshly by history if they leave it undone, or 
unresolved by the time it leaves. I pray to God that won't be 
the case.
    I yield the floor. I yield to my colleague Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    I want to follow up on the chairman's last question. In the 
last few days the McClatchy News Service reported that 
administration officials queried about the START regime's 
coming to conclusion, and what would follow it, indicated that 
we do want to know a lot about what is going on, but we don't 
need to know everything. This was attributed to an unnamed 
administration official.
    This is consistent with the testimony that the chairman and 
I heard from former Under Secretary John Bolton, when he came 
before the committee to testify on the Moscow Treaty. At that 
time, we were told that the need to pin down and verify how 
many missiles, submarines, bombers and warheads were being 
destroyed on a month by month, or year by year basis, was an 
old-regime idea, and not consistent with the views of this 
administration. Instead, the administration was in a more 
modern phase. However, we were reassured, those of us who were 
still fussing about these details, that the START regime was 
still there, and it would govern this process. But now, we find 
that the administration is not committed to continuing the 
START regime in its current form. As you suggested, it is the 
intent of the United States to replace verification with a yet 
to be defined transparency whatever this may mean.
    Now, from my standpoint, we appreciate the Department of 
Defense sending to our office, every month, a scorecard of how 
many warheads were separated from missiles, how many missiles, 
bombers, and submarines were dismantled under the Nunn-Lugar 
Program. Last month, nine warheads were deactivated. This is a 
small detail in the midst of the 13,300 warheads Russia 
inherited from the Soviet Union, but this is something in 
which, as a Senator, I'm very much interested.
    I hope the administration is as interested as I am, and the 
chairman is, in ensuring that these weapons of mass destruction 
are destroyed. I hope we are not in a situation that we're 
saying, the START Treaty was ``not invented on my watch,'' and, 
therefore, we are prepared to let it expire in favor of a more 
``modern'' idea of transparency. I believe it is in U.S. 
national security interests to know what and when Russia 
dismantles weapons systems under their treaty obligations. The 
Russians probably need to know a good bit about what we are 
doing, and that has been the basis of our trust, back to the 
``trust, but verify'' idea. I take verification very seriously.
    So, I appreciate you testifying to the chairman you're not 
an expert on this issue, but I'm hopeful that you will carry 
back to those who are expert on the issue, that whatever 
they're having to say on these issues isn't selling. And they 
need to know that these issues need to be rectified soon, 
because START I is coming to an end, and its continuation is 
important to many of us.
    Do you have any further comment about this general issue?
    Ambassador Fried. Senator, I will certainly take back to my 
colleagues the--your strong views. I can only add that we take 
seriously the need for a post---for post-START arrangements 
that will make both sides believe that they are better off. 
We're working with the Russians now, working through the 
details. The negotiations are going on. We've exchanged ideas. 
And we're looking at this in a cooperative, collaborative 
spirit.
    So, post-START arrangements certainly belong on the 
positive side of U.S.--the ledger of United States-Russian 
relations, and it's our intention that they stay that way.
    Senator Lugar. Now, on a second issue, efforts are underway 
to find common ground on both President Bush and President 
Putin's proposals on bilateral and multilateral nuclear reactor 
fuel assurances to countries who forfeit enrichment and 
reprocessing regimes. What is the current status of 
negotiations on a peaceful nuclear cooperation agreement, a 
``123 agreement'' with Russia? Are discussions underway between 
the United States and Russia that would set up a means to 
provide countries that forego dangerous dual-use technology 
that could lead to potential weaponry, with nuclear fuel 
services available at reasonable prices? Do you have any 
general comment on progress in that area?
    Ambassador Fried. Here, too, we are making good progress 
with the Russians. We hope to be able to conclude a ``123 
agreement,'' which provides for peaceful uses of nuclear 
energy, and would allow for commercial trade of nuclear 
materials and technologies, to some of the ends you've 
suggested, sir.
    We are also working with the Russians on what's called the 
Global Nuclear Energy Partnership, so-called GNEP. This is a 
joint initiative that we've been working on for a year. It's a 
very bold initiative that does, as you said, expand nuclear 
energy--peaceful nuclear energy development and mitigating 
proliferation risks.
    Under this--under GNEP, supplier countries would provide 
fuel services on a commercial basis, but an attractive basis, 
to countries that employ nuclear energy for peaceful purposes, 
but forego the acquisition of sensitive fuel-cycle 
technologies. This is a serious initiative. It is moving ahead. 
We need a ``123 agreement'' to keep moving, but, happily, this 
is an area where we are making steady progress, and hope to 
continue to do so.
    Senator Lugar. Well, that's good news. And I know you'll 
try to keep the committee abreast with how that's proceeding, 
because it's of intense interest to many of us here.
    Ambassador Fried. This is an issue on which we're working 
actively, and, I'm happy to report, productively.
    Senator Lugar. Let me ask, finally, currently Russia is 
engaged in multilateral negotiations on WTO accession. What is 
the administration's view on Russian entry to the WTO? Do you 
believe this would bring about greater transparency and rule of 
law in Russia? What would be the repercussions should Congress 
not approve permanent normal trade relations? Give us a general 
forecast on WTO.
    Ambassador Fried. We support Russia's entry into the WTO. 
They're the--one of the largest nations in the world not in the 
WTO regime. We think it would be helpful, for all of the 
reasons you cited.
    That said, we're not going to cut Russia a special deal, 
they have to meet the requirements that we put forward for 
every country. We're working through that. We have had a--some 
successes, and we've concluded our WTO bilateral agreement. 
We're now working through the multilateral WTO process, and 
issues like agricultural trade, intellectual property rights, 
are things that we're still working through. But there is no 
question that the administration supports Russia's early 
accession to the WTO, and we're putting our energy into this.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Mr. Secretary, welcome.
    Can you give us a sense of the agenda objectives for the 
Bush-Putin meeting Kennebunkport on July 1 and 2? What, 
specifically, are we looking at, as to objectives? What are the 
main focuses of the agenda? And what do we hope that we will 
attain from that meeting?
    Ambassador Fried. I have to start with the caveat that it 
is always difficult to predict what the two Presidents, or any 
two Presidents, will, in fact, discuss. We, in the bureaucracy, 
can serve up any number of papers, and then they do what they 
want.
    But, that said, we are looking at a couple of things. 
First, it's an opportunity to get out of Washington and out of 
Moscow, and to have in-depth conversations about the 
relationship and where--and the direction it's going. 
Kennebunkport is--can be the setting for informal discussions, 
and I think that we're looking at this in that context.
    There are a number of issues that could easily come up. 
During the President's discussion at--on the margins of the G-
8, there was a lot of time devoted to missile defense. Issues 
that could come up include missile defense, Kosovo, the general 
tone of relations, nuclear cooperation in some of the areas 
where we're making real progress. But, again, this is more of 
an occasion for an in-depth look at the strategic direction of 
relations, and an effort to put things on a good course for the 
future. The advantage of a site like Kennebunkport is that it 
provides a venue for just that kind of discussion.
    Senator Hagel. Well, are you saying that--then there is 
very little structure to the exchange as to specific topics 
that we would want to engage President Putin on?
    Ambassador Fried. There are a number of topics which we 
would like to engage President Putin on. I'm just being 
realistic about the way these things work. There are a number 
of particular items high on the bilateral agenda now. I 
mentioned some of them. And I don't--I expect they will come 
up. But there's a larger context, and I think that the two 
leaders may discuss--again, ``may discuss''--the broader 
direction of relations and developments in Russia and its 
neighborhood, and some of the things that have been troubling 
United States-Russian relations in recent months.
    Senator Hagel. Well, then could you give us a status on 
where you believe the current relationship stands concerning 
the missile issue in Eastern Europe, where we stand on Kosovo? 
And I assume those will be two topics that the two Presidents 
will take up, since they are as important in the short term as 
any two issues that we have with Russia.
    Ambassador Fried. That's certainly the case.
    With respect to missile defense, we were intrigued, and 
remain very interested, in President Putin's proposal, which he 
made at Heiligendamm, to allow for joint use of the Russian 
radar facility in Azerbaijan. Our view is that the Russians, by 
opening up this possibility, have opened up the way for a much 
larger discussion of missile defense, and the possibility of 
United States-Russian cooperation on missile defense. In our 
view, missile defense is not intended to degrade the Russian 
nuclear arsenal, but is intended to deal with much smaller 
threats to missiles--you know, two, three missiles from a 
regime like Iran or some other regime in the region, in the 
future.
    Since Russia is not intended as the object of the missile 
defense system, it stands to reason that we would want to work 
with Russia to deal with common threats. Ideally, the United 
States could work with Russia, we would work with our European 
allies, we would work with the Poles and Czechs, and all of 
these systems could be made compatible so that everyone's 
security would benefit.
    We hope to have experts-level discussions on the Russian 
proposal soon. We've offered to engage in discussions with the 
Russians on President Putin's proposal. We hope they take us 
up.
    With respect to Kosovo, we have had intense discussions 
with the Russians for some time now. The issue has moved to the 
United Nations, where we and our allies have introduced a 
resolution to implement the Ahtisaari plan. Ahtisaari plan 
provides for Kosovo's supervised independence and for extensive 
protections for the Serb community. Russia has not accepted 
this approach. They have said that this whole issue needs more 
time. In our view, this--the situation on the ground will only 
deteriorate with time. As President Bush said last week in 
Albania, the time is now to get moving on a solution. So, we 
have some intense work to get--ahead of us with the Russians.
    Senator Hagel. Thank you.
    How are we engaging the Russians on energy, and energy 
security issues, in light, specifically, of a couple of weeks 
ago, the announcement by the Russians of the new pipelines 
coming up from the south, and--Turkmenistan's gas and 
Kazakhstan's gas connecting to the main pipeline into Europe? 
Give us a sense of this issue--energy--and our relationship and 
our engagement with the Russians on it. In particular, as you 
know, we've had some issues where Shell Oil and other companies 
have lost some ground----
    Ambassador Fried. That's quite right.
    Senator Hagel [continuing]. As the Russians have 
nationalized those interests.
    Ambassador Fried. Senator, we believe in an open and 
competitive energy regime--open upstream, at the producers; 
open through transport, open pipelines; and downstream, at the 
consumer level. We don't believe in monopolies or cartels. We 
think that there ought to be multiple sources of transport, 
multiple sources of gas for Europe, and we've made our views 
very clear.
    We're doing several things at once. We are working with the 
Europeans on a common energy strategy, based on these 
principles. We're also working with the Russians so that they 
properly understand our policy. We want--we believe that 
Russia's energy future will require massive upstream technology 
and investment, and we think that a open and welcoming 
investment climate is conducive to that. So, we are working on 
multiple levels at once, with the Russians, with the Europeans 
and with the producer countries, including in Central Asia.
    This is--this issue is going to take some years to develop. 
We've had some successes with the Baku-Ceyhan oil pipeline, the 
Shtokmanese gas pipeline, and we want to build on that. There's 
much more I could say, but that's a--that sketch covers the 
bases.
    Senator Hagel. Thank you.
    Mr. Chairman, thank you.
    The Chairman. Senator Voinovich.
    Senator Voinovich. First of all, I want to thank you, 
Secretary Fried, for the cooperation that you have given me by 
providing information on the tentative future of Serbia and 
Kosovo. I would like, if possible, to get another update on the 
infrastructure to support the U.N.'s comprehensive proposal for 
the Kosovo status settlement based on those recommendations 
from Kai Edie. I would like to see how that has progressed.
    I also am worried about whether the Europeans are as 
concerned with that infrastructure as they should be. I would 
like you to comment on that and on the status of NATO forces, 
international police, and the governance model that would be 
put Implemented. I am very concerned about whether there would 
be sufficient infrastructure in place to support the proposed 
settlement, in the event that the U.N. Security Council should 
go forward with it.
    Second, I am interested in your comments about why Russia 
is not supporting Special Envoy Marti Ahtisaari's plan in the 
U.N. Security Council. Russia says the problem is that a 
precedent that would be set for Abkhazia, South Ossetia, and 
Transnistria to demand independence. But I wonder if that 
really is the reason. Is Russia just trying to extend its 
influence with the Serbs in Southeast Europe? Is it looking for 
a quid pro quo--for example, for something in return for the 
Western missile defense deployment in Poland and the Czech 
Republic? What are the Russians really up to here?
    Ambassador Fried. Sure.
    Senator Voinovich. And, last, but not least, if we cannot 
able to get a U.N. resolution through the Security Council, 
what other options are available for dealing with the final 
status of Kosovo, where you have just said the situation on the 
ground is real cause for concern?
    Ambassador Fried. Senator, those are excellent questions. 
And those are the ones we are dealing with on a daily basis.
    First of all, the good news is, I think we--the 
international community is ready to support a settlement based 
on the Ahtisaari plan. NATO has increased its forces, its 
readiness, and its ability to keep order. We have been working 
very closely with our NATO allies, and we're confident that 
they're in much better shape than they were during the March 
2004 riots, and they're ready to handle security challenges.
    On the civilian side, we are ramping up, preparing for the 
international civilian supervision of Kosovo during its 
transition phase. The European police mission and--law 
enforcement mission--is also similarly ramping up. I'm 
confident that we're ready to do this.
    Under Ahtisaari, there would be 120-day transition period, 
where we would actually stand up these bodies, but a lot of 
work is being done on the ground right now. And, Senator, I'm 
happy to provide details to you.
    [The information referred to above follows:]

    Ambassador Fried. Secretary General Ban Ki-moon announced on August 
1 [2007] the initiative of the Contact Group to undertake a period of 
intensive engagement with the Serb government and the Kosovar Albanian 
authorities to discuss Kosovo's future status and asked the Contact 
Group to report back to him by 10 December. The United States welcomes 
U.N. Secretary General Ban Ki-moon's announcement.
    The Troika's objective is to seek an agreement between the parties 
on Kosovo's status.
    The U.S. views this period as a serious, final attempt to reach an 
agreement between the parties. Ambassador Frank Wisner, U.S. 
Representative to the Kosovo Status Talks, will represent the United 
States in this troika.
    UN Special Envoy Martii Ahtisaari and his staff will remain 
associated with the process.
    The Troika will stay in close touch with the Contact Group and meet 
regularly to report on its activities.


    Ambassador Fried. And I appreciate both your interest and 
your insights that you've shared with us over the past year and 
a half.
    Your second question has to do with Russian motives. And, 
of course, that's hard, as an outsider, to evaluate. The 
Russians have not linked Kosovo with other issues, such as 
missile defense. They've just not made the linkage. They have, 
however, made the linkage between Kosovo and other separatist 
conflicts: Abkhazia and South Ossetia, in Georgia; 
Transnistria, in Moldova. In our view and the view of our 
European allies, Kosovo is a unique case. It has no precedent 
value. It's unique because of the way Yugoslavia fell apart, 
unique because of the Security Council Resolution that has put 
Kosovo under U.N. administration for the past 8 years. It has 
no bearing on the other separatist conflicts. Russia disagrees. 
They have said that, if Kosovo is independent, it is possible 
that Abkhazia and South Ossetia should be, as well. We consider 
that to be an--we disagree with that position. We believe, and 
have said so publicly and privately, that we support the 
territorial integrity of Georgia. So, we do--we want to draw a 
hard-line under Kosovo and say that this is a one-off case. We 
don't like it--we don't like the notion of precedent.
    If there's no U.N. resolution, we obviously have a much 
more difficult situation. It is much better to do this with a 
Security Council resolution than without. There is no advantage 
to doing it without a resolution, there are only disadvantages. 
However, the situation, as I've said, will not improve with age 
and neglect. We can't stay where we are and hope just to kick 
this can down the road. There are some problems that have to be 
dealt with. We're in very close consultations with our European 
partners about exactly this question, and, as President Bush 
said last week, the time is now to move ahead--hopefully, 
through the U.N. process, but, in any event, we can't simply 
kick this down the road and hope for the best.
    Senator Voinovich. I am concerned about the availability of 
viable options and the involvement of the European Union, 
because I have talked with a couple EU members, and they have 
some questions about the legality of taking action without a 
U.N. Security Council resolution.
    I think it is extremely imperative that we allow the 
Europeans to take a leadership role here, because it is their 
problem more than ours. They will be responsible for the 
governance and enforcement of the recommendations and so on. 
And I think that perhaps the President might have been more 
careful about his statement he made in Albania. I know he 
probably wanted to say something that would be well received, 
but I think in some quarters, particularly with members of the 
European Union, there was a feeling that they would have 
preferred him not making that statement.
    So, I think everyone must pay careful attention to dot the 
I's and cross the T's in the event we decide to proceed without 
a U.N. resolution because I do not want to see another Iraq. If 
we do not handle this situation carefully, it could blow up. It 
will not be as much of a problem as Iraq, but it could be 
something that destabilizes the area and does great harm to the 
steady progress built up over the last several years there. It 
would impact Slovenia, Macedonia, Croatia, Bosnia-Herzegovina, 
you name it.
    Ambassador Fried. It could be very difficult, indeed, and I 
completely agree with you that we need to be working in 
lockstep with our European partners. We're--we are going to 
work with them every step. We're in close consultation with 
them. And you are right, that Kosovo affects their security 
more than ours. So, when I say that we're working through these 
issues with the Europeans, I do mean it. We take that very 
seriously.
    I also agree that it is in no way advantageous to do things 
without a Security Council resolution. Doing things with a 
resolution certainly is our preference. Yesterday, we and our 
allies introduced a resolution in New York. We stand by that. 
And we want to work through the U.N. process. That certainly is 
our preference, and we would--we hope that Russia will help us. 
But, in any event, we're going to work with our European 
colleagues very--and allies--very closely.
    Senator Voinovich. Thank you.
    The Chairman. Thank you.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Mr. Fried, thank you for testifying.
    I'd like to talk for a minute about the state of democracy 
in Russia. You said at a May hearing with the Helsinki 
Commission, that Secretary Rice is well informed of issues of 
civil society and democratization and the Russian political 
scene, and that she had extensive discussions both with 
President Putin and Foreign Minister Lavrov about these issues.
    So, how seriously does the Russian Government take United 
States concerns about these issues, and has there been any 
relaxation of current restrictions on civil society and 
political organizations? And, if there has, which elements are 
due to U.S. initiatives, and if not, how does the 
administration intend to engage with Russia on these essential 
democratic tenets?
    Ambassador Fried. We have made issues of democracy, press 
freedom, civil society, and, in particular, Russia's NGO law, a 
subject of bilateral discussions with Russia on many levels. 
Secretary Rice has done this. Under Secretary Burns has done 
this. I've done this. Our Assistant--my colleague, Assistant 
Secretary Lowencron, for Human Rights, has done this.
    I can't give you, with certainty, a causality between what 
we say to the Russians and their actions. I'll give you an 
example; it is not necessarily proof. We did raise the civil--
the NGO registration bill with them, we talked about it with 
both the government, the Presidential administration, and with 
the Duma. As that bill was going through the committee process, 
some changes were made that made it somewhat less onerous. Its 
application has not been as--has not had the negative effects 
that some people feared. Is that the result of what we and the 
Europeans said to Russia? I can't make that claim. I can only 
tell you what we did, and I can tell you what the result was.
    Do the Russians listen to us? They don't like, I don't 
think, to be lectured to. They think that the 1990s was a 
period that they were ``talked at,'' and they are resistant. 
But we have to speak out where we see problems. And we do. We 
have to find the right way to speak out, but we have to 
continue to do so. We work with civil society groups. We work 
on behalf of a free press. We keep in contact with various 
opposition groups.
    In the end, Russia's fate is going to be in the hands of 
the Russians, both the government, civil society. The role of 
outsiders--well-meaning, otherwise--is going to be--is going to 
be second order. Russia will find its way, for good or ill. 
But, in any event, we should not be silent. We are well past 
the point where we regard another country's democracy, or lack 
thereof, with indifference.
    Senator Feingold. Thank you for that candid answer.
    I'd now like to briefly touch on the Russia-Iran 
relationship and its relevance to the United States. I 
understand you believe Russia has been a cooperative player as 
of late with regard to sanctioning Iran. In the past, Russia 
has been a principal source of assistance in Iran's development 
of nuclear power, but now seems to have reversed course of late 
by informing Iran that it expects ``spent'' nuclear fuel to be 
returned. Russia has also refused to deliver nuclear fuel to 
Iran, stopped construction on a nuclear plant, and agreed to 
U.N. Security Council sanctions, albeit somewhat weak ones. 
What do you think accounts for this reversal? What is driving 
Russia's apparent about-face, and can we take it at face value?
    Ambassador Fried. Russia's policy and its actions have 
moved slowly but steadily in a more positive direction, from 
our point of view, over the past 5 or 6 years. I can't say for 
certain what accounts for it, but I suspect that some of it has 
to do with impatience with the way the Iranian regime has 
defied the world and missed opportunity after opportunity to 
respond to reasonable proposals.
    I think that the Russians do not appreciate the resistance 
that Iran has shown to their efforts to advance reasonable 
settlements, and I think that we've seen a tightening of 
Russian attitudes toward Iran. Certainly, the Russians were 
helpful on the two Security Council resolutions we have passed. 
And if we get into a third resolution, as I suspect we will, I 
hope the Russians will be equally helpful.
    Senator Feingold. Well, in that vein, obviously a critical 
component dealing with Iran is forging a strong multilateral 
consensus, which some elements of this administration seem to 
embrace and others do not. And it seems to me that this needs 
to include a positive and active engagement from Russian, which 
you were just talking about. If Iran continues to move forward 
in the direction it is currently headed, and does not cease 
uranium enrichment, do you think Russia would be supportive of 
more punitive sanctions? I don't know if that's what you were 
referring to when you just talked about----
    Ambassador Fried. Uh-huh.
    Senator Feingold [continuing]. The next phase, but, through 
the U.N. Security Council on Iran even though, in the past it 
has resisted harsher measures?
    Ambassador Fried. I can't make a prediction as to Russian 
policy in the future. But the Russians, over the past years, 
have moved steadily in a direction of putting more pressure on 
Iran to come into compliance with what the United Nations asks 
of it. They have done so step by step, in a measured fashion, 
but they have moved in this direction.
    Sometimes they have not moved as fast, or as far, as we 
would like, but, in the end, we've had some pretty good 
results. We certainly do believe in a multilateral approach to 
this problem. It's been a difficult approach, but we've made 
real progress over the past 2\1/2\ years, and we intend to keep 
working in this direction.
    Senator Feingold. Thank you, sir.
    And thank you, Mr. Chairman.
    Senator Lugar [presiding]. Thank you.
    Senator Isakson.
    Senator Isakson. Thank you, Senator Lugar.
    Thank you very much, Mr. Secretary.
    Senator Voinovich is the preeminent Balkan expert, as far 
as I'm concerned, and I pay very close attention. He's been 
there many, many times. I've only been there three times, but 
I've been to Kosovo as recently as back in January. First 
question, do we know for sure if Russia would veto a Security 
Council resolution for Kosovo independence?
    Ambassador Fried. They have said that they cannot accept, 
at this point, any resolution that would provide for Kosovo's 
supervised independence. I can't say for sure what they would 
do--what they will do with the resolution we introduced 
yesterday. They have already publicly said it's inadequate. We 
hope to be able to work with them on a resolution that would 
let us move forward.
    There were a lot of discussions at the G-8 summit about 
Kosovo, as you heard. We hope that the Russians will allow this 
process to move ahead. It is certainly, as Senator Voinovich 
said, much, much better to do this through a Security Council 
resolution, and we hope that the Russians make this possible.
    Senator Isakson. That is the first best choice. There's no 
option----
    Ambassador Fried. It is most certainly the first best 
choice. There are no advantages to doing this outside of the 
Security Council. It is the worst choice than all, except 
perhaps doing nothing.
    Senator Isakson. Well, I understand the ``kick the can'' 
comment and the ``do nothing'' comment, with which I also 
associate myself. I do think what Senator Voinovich said, in 
the possible situation where there is a veto, if things move 
forward, hopefully, the first step will be with the European 
Union and our European partners. They need to be a critical 
part of whatever happens, in the absence of that resolution, I 
would think. And I agree wholeheartedly with Senator Voinovich.
    Ambassador Fried. As do I, sir.
    Senator Isakson. In January, I had the privilege of being 
at the International Security Conference, in Munich, with 
Secretary Scowcroft, who's here and going to testify later, and 
heard the Putin speech that's gotten so much comment. You made 
a statement in your testimony--and I heard it, I didn't read 
it, so if I said this wrong--but you said, ``The United States 
and Russia wish to avoid a rhetorical race to the bottom.'' I 
believe that was the quote. Is that right?
    Ambassador Fried. Almost. The United States wishes to avoid 
a rhetorical race to the bottom.
    Senator Isakson. Well, I'm glad you said it that way in 
response, because when I heard that speech, which Secretary 
Scowcroft and I were just discussing, there very definitely was 
the return-to-the-cold-war mentality at the beginning. There 
definitely were some less-than-positive comments about the West 
in the middle. But, in the end, there appeared, to me, a little 
bit of a plea for recognition, and that that was the motivation 
of the speech, more than taking the rhetoric to the bottom.
    So, with that, my comment on what you've said about the 
agenda coming up at Kennebunkport, I think, is very important, 
because the rhetoric that comes out of that, and the commentary 
that comes out of that, will be that two roads diverged in a 
yellow wood, you're going to go down one or the other. And I 
hope they come out of it with a little bit better message than 
has happened in the individual comments that have been made, 
including the speech by Putin, in January, and subsequent ones 
that have been made.
    Ambassador Fried. I accompanied Secretary Rice in her most 
recent trip to Moscow, where she made the point to the 
Russians, and publicly, that it was important to keep rhetoric 
reasonable and not allow rhetoric to get in the way of 
cooperation, where it is possible. But I--and, although I 
wasn't at Munich, I certainly read President Putin's speech, 
and have read subsequent speeches. So, we all understand that 
there has been some rather sharp rhetoric coming from Russia, 
and it's important to look at the motivations behind that, but 
also to be steady, ourselves.
    Senator Isakson. Last, on the Iranian situation and 
Russia's recent positive moves, over the missile defense, the 
President did quite a good job of--to me--of explaining the 
missile defense idea was not aimed at Russia, but it was aimed 
at a potential rogue nation that might have one or two or three 
warheads in the protection of that area. Do you think making 
that point helped Russia take a look at the United Nations and 
the world concerns with Iran, and maybe be more positive than 
he had been in the past? Because--and I say that, because--
excuse me for interrupting before you spoke--because they have 
their difficulties, such as Chechnya, and things of that 
nature, so they very well, themselves, could see themselves as 
a potential beneficiary from a missile defense system.
    Ambassador Fried. We certainly hope that the Russians will 
come to understand that our missile defense plans are not 
aimed, in any way, at degrading their nuclear arsenal, but are 
aimed to deal with future potential threats coming from Iran or 
other areas--other countries in the region, and that, on this 
basis, they would be prepared to explore with us possibilities 
of cooperative arrangements.
    Now, if it turns out that President Putin's offer of joint 
use of the Qabala radar facility in Azerbaijan, is an opening 
to that kind of cooperation, it could be a very important and 
positive development. Signals from Russia are mixed, but we 
intend to explore the Russian proposal in a very positive 
spirit, and we hope that it means what we hope it means.
    Senator Isakson. Thank you, Mr. Secretary.
    Senator Lugar. Thank you, Mr. Secretary. The chairman is 
absent, but he asked to join me in thanking you for your 
testimony today, and your forthcoming responses to our 
questions for the record. It is always great to have you before 
us.
    The chairman asked me now to call before the committee our 
second panel, and that will be composed of Dr. Zbigniew 
Brzezinski and General Brent Scowcroft. If those gentlemen 
would come to the witness table, we would appreciate it, and 
we'll proceed, then, with their testimony.
    Ambassador Fried. Thank you for your attention, Senator.
    Senator Lugar. Thank you.
    The Chairman [presiding]. Would our next panel please be 
seated?
    We are, indeed, fortunate to have two former National 
Security Advisors, but, much, quite frankly, more consequential 
than that, two men who, for the better part of the last two 
decades, have played a major, major role in our foreign policy 
and strategic doctrine, and two of the most outspoken and well-
respected voices from both a Republican and Democratic 
administration. And I welcome you both.
    With your permission, I'll put your bios in the record, 
since you're probably two of the best-known folks in the 
foreign policy field. And, without objection, I'd like to be 
able to do that.
    [The information previously referred to follows:]


                            Brent Scowcroft

    Lieutenant General Brent Scowcroft, USAF (Ret.), a counselor at the 
Center for Strategic and International Studies, is president of the 
Scowcroft Group, Inc., an international business consulting firm. He is 
also the founder and president of the Forum for International Policy, a 
nonprofit organization providing independent perspectives and opinions 
on major foreign policy issues.

    General Scowcroft served as assistant to the president for national 
security affairs in the Ford and bush administrations. He also served 
as military assistant to President Nixon and as deputy assistant to the 
president for national security affairs to Presidents Ford and Nixon.

    Prior to joining the Bush administration, General Scowcroft was 
vice chairman of Kissinger Associates, Inc. He serves as director on 
the boards of Pennzoil-Quaker State and Qualcomm Corporations. He is 
also on the board of advisors of ExpertDriven, Inc.

    In the course of his military career, General Scowcroft has held 
positions in the Organization of the Joint Chiefs of Staff, 
headquarters of the U.S. Air Force, and the Office of the Assistant 
Secretary of Defense for International Security Affairs. Other 
assignments included faculty positions at the U.S. Air Force Academy 
and the U.S. Military Academy at West Point, and assistant air attache 
in the U.S. Embassy in Belgrade, Yugoslavia.

    General Scowcroft had an aeronautical rating as a pilot and has 
numerous military decorations and awards. In addition, President Bush 
presented him with the Medal of Freedom Award in 1991. In 1993, Her 
Majesty Queen Elizabeth presented him with the insignia of an Honorary 
Knight of the British Empire (K.B.E.) at Buckingham Palace.

    General Scowcroft was born in Ogden, Utah. He received his 
undergraduate degree and commission into the Army Air Forces from the 
U.S. Military Academy at West Point. He has an M.A. and Ph.D. from 
Columbia University.




                               __________


                          Zbigniew Brzezinski

    Dr. Zbigniew Brzezinski is counselor, Center for Strategic and 
International Studies; and the Robert E. Osgood Professor of American 
Foreign Policy, the Paul Nitze School of Advanced International 
Studies, Johns Hopkins University, Washington, DC.
    From 1977 to 1981, he was National Security Adviser to President 
Carter. In 1981 he was awarded the Presidential Medal of Freedom ``for 
his role in the normalization of U.S.-Chinese relations and for his 
contributions to the human rights and national security policies of the 
United States.''

Other Current Activities

     Public and Pro Bono: honorary chairman, AmeriCares Foundation (a 
private philanthropic humanitarian aid organization); co-chairman, 
American Committee for Peace in the Caucasus; member, board of 
directors, Jamestown Foundation; member, board of trustees, 
International Crisis Group; trustee, Trilateral Commission (a 
cooperative American-European-Japanese forum); member, board of 
directors, Polish-American Enterprise Fund and of the Polish-American 
Freedom Foundation; member, Honorary Board of American Friends of Rabin 
Medical Center; chairman, International Advisory Board for the Yale 
Project on ``The Culture & Civilization of China''; member, 
International Honorary Committee, Museum of the History of Polish Jews 
in Warsaw, etc.


    Private Sector:  international adviser to major U.S./global 
corporations; frequent participant in annual business/trade 
conventions; also a frequent public speaker, commentator on major 
domestic and foreign TV programs, and contributor to domestic and 
foreign newspapers and journals.

Past Activities

    U.S. Government: 1966-68, member of the Policy Planning Council of 
the Department of State; 1985, member of the President's Chemical 
Warfare Commission; 1987-88, member of the NSC-Defense Department 
Commission on Integrated Long-Term Strategy; 1987-89, member of the 
President's Foreign Intelligence Advisory board (a Presidential 
commission to oversee U.S. intelligence activities).


    Public and Political: 1973-76, director of the Trilateral 
Commission; in the 1968 Presidential campaign, chairman of the Humphrey 
Foreign Policy Task Force; in the 1976 Presidential campaign, principal 
foreign policy adviser to Jimmy Carter; in 1988, co-chairman of the 
Bush National Security Advisory Task Force; past member of boards of 
directors of Amnesty International, Council of Foreign Relations, 
Atlantic Council, the National Endowment for Democracy; 2004, co-chair, 
Council on Foreign Relations-sponsored Independent Task Force, Iran: 
Time for a New Approach.


    Academic: On the faculty of Columbia University 1960-89; on the 
faculty of Harvard University 1953-60; Ph.D., Harvard University, 1953; 
B.A. and M.A., McGill University 1949 and 1950; his most recent book is 
``The Choice: Global Domination or Global Leadership''; also author of 
``The Grand Chessboard: American Primacy and Its Geostrategic 
Imperatives''; the best selling ``The Grand Failure: The Birth and 
Death of Communism in the 20th Century,'' as well as ``Out of Control: 
Global Turmoil on the Eve of the 21st Century''; ``Game Plan: How To 
Conduct the U.S.-Soviet Contest''; ``Power and Principle: Memoirs of 
the National Security Adviser, 1977-1981''; ``The Fragile Blossom: 
Crisis and Change in Japan''; ``Between Two Ages: America's Role in the 
Technetronic Era''; ``The Soviet bloc: Unity and Conflict''; and of 
other books and many articles in numerous U.S. and foreign academic 
journals.


    The Chairman. And I would now, because we're very anxious 
to hear what you have to say, turn to you, Dr. Brzezinski, by 
pointing out, by the way, that you and I suffer from a similar 
fate; we have children who are better than we are. Your 
daughter is incredible. I don't know whether you get a chance 
to watch her on television, but she is--she's tough, and she's 
smart, you've trained her well. My dad used to say, ``The 
greatest satisfaction a parent can have is to look at their 
children and know they had turned out better than they did.'' I 
think that can be said about you--as well as your sons.
    But, at any rate, I welcome you, and the floor is yours, 
and, after that, we'll turn to you, General Scowcroft, and 
we're anxious to hear from you both.

STATEMENT OF DR. ZBIGNIEW BRZEZINSKI, FORMER NATIONAL SECURITY 
   ADVISOR; COUNSELOR AND TRUSTEE, CENTER FOR STRATEGIC AND 
             INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Brzezinski. Thank you, Mr. Chairman. You have totally 
disarmed me. [Laughter.]
    The Chairman. Though it happens to be true.
    Dr. Brzezinski. Well, I realize that. I'm now at a stage in 
my life in which, when I go into a restaurant, people come up 
to me, and I puff up, because, you know, I feel I'm being 
recognized, and they say to me, ``Are you the father of Mika?'' 
[Laughter.]
    The Chairman. Well, I'm known as Beau Biden's father, in 
Delaware. He's the attorney general. So----
    Dr. Brzezinski. Thank you very much for having me here, and 
the issue that you're focusing on is obviously important and 
timely. I'll make a few comments about it, in general, but let 
me start by giving three capsule formulations which guide my 
approach to this issue. The first is: Don't dramatize. The 
second is: Don't propitiate. The third thing is: Don't 
personalize.
    In my view, we're not facing a renewal of the cold war. I 
think that is an overdramatization of the present state of 
American-Russian relationships. But we are in a phase of a cold 
peace, and that cold peace is related to Russia's internal, and 
rather difficult, historical transition.
    Russia is in the process of moving from an imperial 
consciousness, an imperial evocation which has defined it over 
the centuries, to being a national state imbued with 
nationalism as the source of its internal unity, as the source 
of its political impetus.
    It has, as a consequence, regional ambitions. And we have 
seen them reflected in some one-sided, highhanded actions by 
Russia toward Estonia or toward Georgia or toward Ukraine. And 
it is still motivated, at least on the top elite levels, by 
what might be called an imperial nostalgia.
    But the basic fact is, it is no longer a superpower. Its 
economy is one-dimensional. It's an energy-exporting economy, 
but it has a very antiquated industrial infrastructure. Its 
social conditions outside of the major cities are still rather 
poor and primitive. And Russia faces an extremely serious 
demographic crisis in which its population is declining 
rapidly, and, while declining, it is also aging rapidly, which 
is a rather incongruous combination, but it maximizes the 
economic and social weaknesses of Russia.
    Russia today, worldwide, has no ideological appeal. The 
Soviet Union did. Russia cannot exploit an ideological appeal, 
because it doesn't have it. It tries to substitute for it by 
money. And it's learning to play the money game, including, I 
may add here, in Washington. If there is any doubt about it, 
you should have your staff dig up for you an article which 
appeared in the Wall Street Journal about a month or so ago on 
how Russian money is used in this city to buy services and 
influence.
    But money, unlike ideology, does not buy commitment, it 
doesn't generate devotion. It can capitalize on opportunism, 
and it can be very useful, but not as a powerful source of 
influence.
    Russia is, therefore, in no position to reignite a cold war 
with us, either. And it's rather interesting to me to note that 
Russian observers say that quite often. A leading Russian 
geopolitical thinker recently observed, in writing--Dmitri 
Trenin is his name--``Energy superpower is a myth, and a 
dangerous one, because it may mislead the Russian leaders into 
thinking they have more influence than they actually can 
generate thereby.''
    An article in a major Russian paper, Novaya Gazeta, 
recently said the following: ``Would a confrontation,'' 
presumably with the United States, ``be beneficial to Russia?'' 
The answer: ``Obviously not. Russia's economic resources are 
not comparable to those of the West. In the event of a 
confrontation, our country would certainly have to choose 
between guns and butter, while the West, much to the 
displeasure of many Russian,'' quote/unquote, ``patriots,'' can 
afford both. A confrontation would not be good for the budgets 
of Russian corporations, some of them already burdened with 
debts to Western creditors; neither would it increase dividends 
for their shareholders. That's the best-case scenario. In the 
worst-case scenario, the Western creditors would call in their 
debts, and a substantial part of those debts would be paid by 
the state at the expense of the people.''
    In brief, I don't think we are moving toward a 
confrontation of a cold-war type, but it is a process of 
accommodation to the new realities prevailing between us and 
the Russians and involving, also, Russia's new, different 
position in the world.
    A broader accommodation between the United States and 
Russia, which one had hoped for in the early 1990s, I think has 
been delayed by two wars and their destructive impact on the 
policies, both of Russia and of the United States. I have in 
mind, first of all, the war in Chechnya, which badly damaged 
democratic prospects in Russia and set in motion political 
processes which have emphasized authoritarian institutions of 
power. And, I think, by and large, the West ignored that. 
Interestingly, only one Western leader who is now in power has 
made an issue of that war, its destructive and immoral aspects, 
and that's President Sarkozy, who explicitly said, recently, 
that he condemns the silence about the 200,000 dead and 400,000 
war refugees in Chechnya generated by the war. He's been quite 
outspoken on that subject.
    The war in Iraq has damaged American position in the world, 
and that's created temptations for the Russians, for Putin 
personally, to exploit the consequences of that war, and some 
of his rhetoric clearly reflects that, the recent rhetoric; and 
some of his statements addressed towards Western Europe, such 
as about targeting sites in Western Europe, or their other 
excessively energetic reaction to the Estonian incident 
involving the Russian War Memorial, or the CFE issue that was 
recently raised in Vienna, reflects, in my judgment, an 
excessive reaction, which has rebounded negatively against 
Russia.
    Having said this, I will also argue that the Putin regime--
probably followed before too long by, perhaps, the Ivanov 
regime--is gradually coming to an end, in the sense that that 
regime reflects the last gasp of the old Soviet elite. They are 
the products of the KGB, once the pampered children of the 
Soviet system with access to the world, with access to the 
Western literature, trained in politics and hard-nosed playing. 
But, within a decade they're going to be replaced, probably by 
a new generation of leaders, many of them trained in the West, 
much more open to the West, not brought up in this imperial 
atmosphere. And hence, in the longer run I think we can more 
optimistic and expect steady improvement in American-Russian 
relations.
    In that context, Mr. Chairman, I think our policy should 
reflect the mixed nature of shared, as well as conflicting, 
interests with Russia. We should emphasize nonproliferation as 
a shared interest. And I think we do, to some extent. The 
growing interdependence, economically, is to be welcomed. I 
think, personally, the Jackson-Vanik amendment should be looked 
at critically. The WTO issue is, I take it, maturing, and, 
before long, Russia will be entering.
    But we should, at the same time, support the new states 
around Russia in the preservation of their independence. We 
should further economic cooperation, particularly in energy, 
but avoid dependence. And we have been slack in exploiting 
opportunities in Central Asia, with the risk to potential 
diversification. And, above all else, our long-range goal ought 
to be to create a context in which Russia sees its own interest 
in becoming more closely associated with the Euroatlantic 
world, because, in my view--in fact, historically--there is no 
other option for Russia. Russia, as an imperial undertaking, is 
already historically assayed.
    Russia, as a regional dominant power, will simply stimulate 
the resentment of all of its neighbors, and it has, to some 
extent, already. Russia alone, between the Euroatlantic world 
and China, runs the risk, eventually, of losing its vast 
eastern spaces to China. Russia really has no choice but to be 
part of the West, and we should try to catalyze that.
    And an important way of catalyzing that is to help Ukraine 
become part of the West. And I emphasize that. Helping Ukraine 
to be part of the West is not an anti-Russian policy, it is a 
policy which paves the way for Russia to be part of Europe, 
because if Ukraine moves to Europe, to the West, Russia will 
have to follow suit. So, it is a strategic objective that is 
actually in our shared interest.
    Let me conclude by one final point. The President will be 
entertaining Mr. Putin in Kennebunkport. In my view, personal 
theatrics should follow progress in strategic relationships, 
but should not create deceptive illusions. If I may say so, it 
is lesson to be drawn from the experience of the Bush-Gorbachev 
relationship in which Brent was involved. That was a 
relationship in which personal cordiality was closely linked to 
strategic progress, and strategic progress preceded personal 
cordiality, and that, in my judgment, was the way to do it.
    To do it the other way is to create illusions, 
misconceptions; it breeds assertions such as the one made not 
long ago by the Secretary of State, that the American-Russian 
relationship is the best in history. It isn't. And it takes a 
long time and effort to make it the best in history. But 
personal relationships should formalize and express a changing 
reality.
    And I hope that, before the President meets Putin in 
Kennebunkport, and entertains him in this family setting, which 
is likely to create illusions, that he reads an important book. 
And I brought it here. It's called, ``A Russian Diary,'' by 
Anna Politkovskaya. And this is the Russian journalist who was 
shot to death in Moscow not long ago.
    Mr. Putin dismissed the significance of her killing. The 
killers have not been discovered. And the book is a remarkable 
statement of personal courage and decency by a sensitive 
Russian woman who just kept a diary about what is happening 
today in Russia, day after day after day, noting the things 
that troubled her, politically and morally. And it conveys what 
is good about the Russian people, some of them: their depth of 
feeling, their ability to empathize, their sense of history. 
But it also conveys what's wrong, and what shouldn't be 
ignored: The brutality, the insensitivity, the mendacity, the 
cruelty, particularly--and she was concerned with that--in 
Chechnya, but, more generally, in the system at large.
    We have to have that mixed perspective to understand what 
is going on, and we have to feel for someone like Politkovskaya 
to have a better understanding of both the opportunities and 
limits of the personal relationship with a President who 
originates from a very particular institution of the Soviet 
state, and whose traditions, to some extent, he still embodies.
    Thank you very much.
    [The prepared statement of Dr. Brzezinski follows:]

Prepared Statement of Dr. Zbigniew Brzezinski, Former National Security 
Advisor; Counselor and Trustee, Center for Strategic and International 
                        Studies, Washington, DC

                      how to avoid a new cold war
    America's relationship with Russia is on a downward slide. 
President Vladimir Putin's recent threat to retarget Russian missiles 
at some of America's European allies is just the latest flash point.
    The elaborate charade of feigned friendship between Putin and 
President George W. Bush, begun several years ago when Bush testified 
to the alleged spiritual depth of his Russian counterpart's soul, 
hasn't helped. The fact that similarly staged ``friendships''--between 
F.D.R. and ``Uncle Joe'' Stalin, Nixon and Brezhnev, Clinton and 
Yeltsin--ended in mutual disappointment did not prevent Secretary of 
State Condoleezza Rice from boasting not long ago that U.S.-Russian 
relations were now the best in history. Surely it would be preferable 
to achieve a genuine, sustainable improvement before staging public 
theatrics designed to create the illusion that one has taken place. 
It's a lesson Bush should keep in mind in July, when Putin is scheduled 
to visit the President in Kennebunkport, Maine.
    There are many reasons for the chill but none greater than the 
regrettable wars both nations have launched: Russia's in Chechnya and 
the U.S.'s in Iraq. The wars have damaged prospects for what seemed 
attainable a decade and a half ago: Russia and the United States 
genuinely engaged in collaboration based on shared common values, 
spanning the old cold war dividing lines and thereby enhancing global 
security and expanding the transatlantic community.
    The war in Chechnya reversed the ambiguous trend toward democracy 
in Russia. Mercilessly waged by Putin with extraordinary brutality, it 
not only crushed a small nation long victimized by Russian and then 
Soviet imperialism but also led to political repression and greater 
authoritarianism inside Russia and fueled chauvinism among Russia's 
people. Putin exploited his success in stabilizing the chaotic post-
Soviet society by restoring central control over political life. The 
war in Chechnya became his personal crusade, a testimonial to the 
restoration of Kremlin clout.
    Since the beginning of that war, a new elite--the siloviki from the 
FSB (the renamed KGB) and the subservient new economic oligarchs--has 
come to dominate policymaking under Putin's control. This new elite 
embraces a strident nationalism as a substitute for Communist ideology 
while engaging in thinly veiled acts of violence against political 
dissenters. Putin almost sneeringly dismissed the murder of a leading 
Russian journalist, Anna Politkovskaya, who exposed crimes against the 
Chechens. Similarly, troubling British evidence of Russian involvement 
in the London murder of an outspoken FSB defector produced little more 
than official Russian ridicule. All the while, Russia's mass media are 
facing ever growing political restrictions.
    It doubtless has not escaped the Kremlin's attention that the West, 
including the United States, has remained largely silent. The Bush 
administration was indifferent to the slaughter in Chechnya, and after 
9/11 it even tacitly accepted Putin's claim that in crushing the 
Chechens, he was serving as a volunteer in Bush's global ``war on 
terror.'' The killing of journalist Politkovskaya and Putin's dismissal 
of its import similarly failed to temper the affectations of personal 
camaraderie between the leaders in the White House and the Kremlin. For 
that matter, neither has the general antidemocratic regression in 
Russia's political life.
    The apparent American indifference should not be attributed just to 
a moral failure on the part of U.S. policymakers. Russia has gained 
impunity in part because of the effects of America's disastrous war in 
Iraq on U.S. foreign policy. Consider the fallout: Guantanamo has 
discredited America's longstanding international legitimacy; false 
claims of Iraqi WMD have destroyed U.S. credibility; continuing chaos 
and violence in Iraq have diminished respect for U.S. power. America, 
as a result, has come to need Russia's support on matters such as North 
Korea and Iran to a far greater extent than it would if not for Iraq.
    As a consequence, two dominant moods now motivate the Kremlin 
elite: Schadenfreude at the U.S.'s discomfort and a dangerous 
presumption that Russia can do what it wishes, especially in its 
geopolitical backyard. The first has led Moscow to take malicious slaps 
at America's tarnished superpower status, propelled by feel-good 
expectations of the U.S.'s further slide. One should not underestimate 
Russia's resentment over the fall of the Soviet Union (Putin has called 
it the greatest disaster of the 20th century) and its hope that the 
United States will suffer the same fate. Indeed, Kremlin strategists 
surely relish the thought of a United States deeply bogged down not 
only in Iraq but also in a war with Iran, which would trigger a 
dramatic spike in the price of oil, a commodity in plentiful supply in 
Russia.
    The second mood--that Russia has free rein to act as it pleases on 
the international scene--is also ominous. It has already tempted Moscow 
to intimidate newly independent Georgia; reverse the gains of the 
Orange Revolution in Ukraine; wage aggressive cyberwar against EU 
member Estonia after the Estonians dared to remove from the center of 
their capital a monument celebrating Soviet domination of their 
country; impose an oil embargo on Lithuania; monopolize international 
access to the energy resources of Central Asia. In all these cases, the 
United States, consumed as it is by the war in Iraq, has been rather 
passive. U.S. policy toward Russia has been more grandiloquent than 
strategic.
    Despite the tensions, the uneasy state of the relationship need not 
augur a renewed cold war. The longer term trends simply do not favor 
the more nostalgic dreams of the Kremlin rulers. For all of Russia's 
economic recovery, its prospects are uncertain. Russia's population is 
dramatically shrinking, even as its Asian neighbors are growing and 
expanding their military and economic might. The glamour of Moscow and 
the glitter of St. Petersburg cannot obscure the fact that much of 
Russia still lacks a basic modern infrastructure.
    Oil-rich Russia (its leaders refer to it as an ``energy 
superstate'') in some ways is reminiscent of Nigeria, as corruption and 
money laundering fritter away a great deal of the country's wealth. To 
an extent, Russia can use its vast profits to get its way. But buying 
influence, even in Washington (where money goes a long way), cannot 
match the clout the Soviet Union once enjoyed as the beacon of an 
ideology with broad international appeal.
    In these circumstances, the United States should pursue a calm, 
strategic (and nontheatrical) policy toward Moscow that will help 
ensure that a future, more sober Kremlin leadership recognizes that a 
Russia linked more closely to the United States and the European Union 
will be more prosperous, more democratic and territorially more secure. 
The United States should avoid careless irritants, like its clumsily 
surfaced initiative to deploy its missile defenses next door to Russia. 
And it should not dismiss out of hand Moscow's views on, for example, 
negotiations with Iran, lest Russia see its interests better served by 
a U.S.-Iran war.
    But the United States should react firmly when Russia tries to 
bully its neighbors. America should insist that Russia ratify the 
European Energy Charter to dispel fears of energy blackmail. The United 
States should continue to patiently draw Ukraine into the West so that 
Russia will have to follow suit or risk becoming isolated between the 
Euro-Atlantic community and a powerful China. And, above all, the 
United States should terminate its war in Iraq, which is so damaging to 
America's ability to conduct an intelligent and comprehensive foreign 
policy.

    The Chairman. Thank you very much.
    General Scowcroft.

 STATEMENT OF LIEUTENANT GENERAL BRENT SCOWCROFT, USAF (RET.), 
  FORMER NATIONAL SECURITY ADVISOR; PRESIDENT, THE SCOWCROFT 
                     GROUP, WASHINGTON, DC

    General Scowcroft. Thank you, Mr. Chairman, for inviting us 
to appear before you on such an important subject.
    Almost everything that could be said about the relationship 
has been said this morning, and I will not tread the same path 
that Zbig has. I largely agree with his observations. But let 
me just say, briefly, where I come from.
    I believe that Russia is in the process--Zbig called it a 
historical transition--I think it's--it is that, but it is 
Russia coming to grips with itself. Zbig said Russia is no 
longer a superpower. That is a--we can pass that off our 
tongues. That is a traumatic event for Russia and the Russian 
peoples. They're used to occupying a huge space, huge 
geopolitical space in the world, and this is a traumatic 
adjustment for them. And I think this adjustment is taking 
place in typical Russian fashion.
    We're not going to determine the outcome. We can hasten it, 
we can retard it. There are many disagreeable aspects to this 
current phase in the transition, different from previous ones, 
hopefully worse than succeeding ones. But preaching to them 
about how they ought to be just like us is, first of all, not 
likely to succeed, and, second, not likely to be useful; 
indeed, it could be counterproductive. We ought to make certain 
that they understand our views on their policy and what we 
think of it, but that's different from harassing them and, 
thus, exacerbating the situation.
    I think that, on the whole, at this particular juncture, we 
ought to focus on the things that we can do together rather 
than on the things that divide us. And there are many of those. 
I think--Senator Isakson talked about Putin's speech, which 
began this rhetorical descent last February, and there were 
three parts to Putin's speech. And it--I think it tells more 
about what's going on, both in Putin's mind and in the Russian 
soul, if you will, than the actual words themselves. He--there 
were three parts to his speech. The first part of his speech 
was, ``At the end of the cold war, when we were flat on our 
back, you walked all over us. You took advantage of us, you 
pushed us here and there.'' The facts are almost irrelevant 
here; that's the way they feel. This is part of this descent 
from superpower into abject poverty and insignificance.
    The second part of his speech was, ``We're now strong 
again''--largely due to energy, but, ``now we're strong again, 
and we're going to push back. We're not going to take it 
anymore.'' And that, again, is the Russian bravado in the face 
of difficult circumstances.
    But the third part of his speech, nobody paid any attention 
to. He said, ``But now we need to cooperate. We need to 
cooperate on strategic nuclear weapons. We need to get on with 
this accession to the Moscow Treaty. We need to cooperate on 
nonproliferation, and we need to cooperate so that no country 
feels it necessary to nationally enrich uranium.'' Now, that's 
a pretty dramatic statement, and nobody paid any attention to 
that.
    And so, I think what we need to do is to work to 
understand--not--we don't need to sympathize with the Russians, 
they are where they are, but we need to understand what 
motivates them, in part. And I think the trauma they're going 
through is probably harder than--for the Russians than almost 
any other society of which I'm aware.
    But to try to work on the kinds of things that we do have 
in common, among them are the things that Putin mentioned--
nuclear weapons, Iran, those kinds of things--we do not differ 
significantly on those, and I think we can make progress. The 
area around Russia, the former Soviet space, and so on, that is 
probably the area where we come close to confronting each other 
right now.
    On the personal versus the policy, I don't disagree with 
Zbig at all, but I think one of the things that has happened 
since the end of the Soviet Union is that the leaders have 
gotten together--gotten along much better than the 
bureaucracies on both sides. I don't think there's ever been a 
real reconciliation of the bureaucracies. We don't like dealing 
with each other. The first attempt to do it was the Gore-
Chernomyrdin thing, to force the bureaucracies to work 
together, and so on.
    Then there was personal diplomacy. When President Bush, 
early in his first term, met with Putin and says, ``Here's 
somebody I think we can do business with,'' and that sort of 
suffused a glow, but there wasn't anything underneath it, and 
it fell apart, partly because of our actions. Putin reached out 
after 9/11, reached out about terrorism, and we pretty much 
brushed him aside. I think Putin thought he was going to be 
able to participate in Afghanistan and so on, because they knew 
much more about it, and so on. So, I think now he feels 
rebuffed, and I think this is his answer.
    Will this solve the problems? No. But Kennebunkport is 
quintessentially atmosphere. And if we can change the 
atmosphere, it might affect the policy. But this is going to be 
a long road. And, I think, on our part--hey, we're the winners 
here--on our part, it's going to take a lot of patience, 
understanding, and firmness, when required.
    Thank you.
    The Chairman. Thank you very much.
    Why don't I yield to Senator Lugar to begin.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    General Scowcroft, as you commented, there were some areas 
of potential cooperation presented by President Putin in the 
speech that Senator Isakson and you heard at the Munich 
Security Conference. You pointed out that he mentioned 
cooperation on weapons of mass destruction, with the goal of 
trying to bring proper controls to weapons and materials. 
Likewise, the possibility of providing nuclear fuel services to 
countries that are prepared to forego enrichment and 
reprocessing technologies that could also be used for weapons 
purposes. You suggested that perhaps no one was listening to 
these proposals, but the chairman, Senator Isakson, and I were. 
This is why we queried the previous witness about where our 
administration is heading in these areas, where I believe there 
are tremendous opportunities which are very important for our 
security, as well as Russia's.
    You also indicated, however, that there are potential 
controversies in so-called Russian space, as they see it, 
countries that are near Russia or on their borders. 
Specifically on how we pursue energy supplies for ourselves, as 
well as for our friends in NATO or Europe, and it's in this 
area that I really want you to comment. How do we discuss with 
Russia the important work, for instance, that Dr. Brzezinski is 
doing in a task force with former Minister Volker Ruhe, of 
Germany. The group is advising Ukraine on how it might progress 
at a very difficult time in that country's development? Or, 
those of us who have been visiting frequently in Georgia, with 
a government there that certainly counts upon our understanding 
and support. Similarly, our strong support for the Baku-
Tbilisi-Ceyhan pipeline that travels through Georgia and 
perhaps, in the future, connecting with Kazakhstan and other 
energy sources further east. What is an appropriate way to 
approach Russians on these subjects without presenting an in-
your-face-type strategy? These issues are important to us, and 
we do not hide that. And we need to engage with Russia in a 
dialogue on these subjects, in addition to other areas in which 
we might seek cooperation.
    General Scowcroft. Well, I think--I think that this is the 
most difficult area for us to cooperate. And I think we each 
deeply suspect the motives of the other in it. And I think I 
would probably disagree with Zbig on Ukraine. I think having 
Ukraine lead the Soviet Union to the West probably will 
retard--Soviet Union--Russia to the West--will retard Russia 
going to the West, because they will look at it as us trying to 
tear the brotherhood apart and isolate Russia and bring Ukraine 
into the West.
    I think we need to be very cautious on this. You know, one 
of the problems in the--with the previous witness, we talked 
about the NGO, blah, in Russia. Well, look what happened. The 
Orange Revolution--we trumpeted the role of the NGOs in the 
Orange Revolution. What do the Russians do? They turn around 
and say, ``We've got NGOs here, we'd better prevent that from 
happening.'' Was it intended? No. No, it wasn't. But we have--
we need to think more--put ourselves in Russian shoes and be 
smarter in the way we handle things.
    On the other hand, with energy, for example, I think we 
ought to make clear to the Russians that we are not content 
with them having an energy monopoly, and thus, coercive 
capability over Europe. And I think we ought to push hard, just 
as an example, for a pipeline under the Caspian Sea, which 
would bring Central Asian oil and gas into Europe. It doesn't 
hurt Russia, it simply breaks their monopoly.
    So, I think we need to be more sophisticated than we have, 
because each one of these problems needs to be dealt with on 
its own bottom.
    Senator Lugar. Dr. Brzezinski, would you want to comment on 
Ukraine, specifically, and the difference of opinion that 
apparently you have with General Scowcroft?
    Dr. Brzezinski. Well, first of all, let me say that I don't 
think foreign policy is the same thing as psychiatry. Foreign 
policy involves defining your objectives, assessing how 
reasonable it is to seek them, try to avoid a confrontation 
with the other side, while, at the same time, advancing those 
objectives, in a manner that doesn't put the other side in 
complete jeopardy. That requires careful balancing, but not an 
excessive concern for the moods and sensitivities of the 
others, because that opens you up to manipulation and 
exploitation.
    Obviously, it's important to have a sense of history and 
understand what is happening in a given part of the world, but, 
in doing so, I think one has to have a much broader view than 
concentration simply on hurt feelings or complexes.
    As far as Ukraine is concerned, I think the argument that 
Ukraine moving to the West is going to help Russia move to the 
West is sustainable by some degree of evidence. For example, 
the fact that Ukraine has been moving forward on WTO has helped 
to accelerate Russian interest in moving into WTO. And that's 
all to the good. I want Russia in WTO. I'll be very happy to 
see Russia in WTO.
    I think the question of energy dependence of Ukraine and 
Russia, and the issue of ownership of pipelines in Ukraine, has 
helped to advance a discussion on access, not only of Russian 
capital to downstream arrangements in the West, but Western 
capital to upstream arrangements in Russia--again, creating a 
suction effect on Russia moving to the West.
    So, I rather stick to my position, that advancing Ukraine's 
evolution to the West is not an anti-Russian policy, but one 
which, in fact, paves the way to Russia moving in the same 
direction.
    Conversely, if we adopt a policy toward Ukraine which is 
dependent on Russian sensitivities, we will help to reawaken 
the lingering nostalgia for, essentially, an imperial position 
in which Ukraine, Belarus, and the others are viewed as an 
extension of a traditional sphere of imperial power.
    Finally, when it comes to dealing with the question of the 
oil producers outside of Russia, and particularly the Central 
Asian states, I think we have to deal with them directly, and 
make an effort to deal with them directly, and make it 
attractive to them to diversify the sources of access to world 
markets.
    The fact of the matter is that all of these new states feel 
vulnerable in their political independence, and they prefer to 
be independent. And they know that, if they have no access to 
world markets, they become much more susceptible to pressures. 
But to deal with that, one has to negotiate with them and be 
prepared to really make serious commitments.
    The reason we got the Baku-Ceyhan line was that the United 
States was really prepared to put its money where its mouth is 
to develop a consortium that was engaged in this effort. I know 
a little bit about it, because I was a presidentially emissary 
to Azerbaijan, dealing with that issue, and that was a success. 
We need to do the same now regarding the Trans-Caspian pipeline 
that Brent correctly mentioned. That's very important. But that 
means we have to deal with the Turkmeni regime at a very high 
level, flatter them, take into account their diverse national 
interests; we have to deal with Kazakhstan. And we shouldn't go 
too far--in fact, I think we have gone too far--in ostracizing 
the Uzbek regime, which is also an important source of 
independence for the Central Asian states. So, we have to have 
a comprehensive strategy, which is not one of hostility toward 
Russia, but which is designed, above all else, to create a 
context in which Russia's movement to the West, to the European 
community, to a closer association with it, is tangibly 
furthered, in keeping with historical dynamics.
    Senator Lugar. I thank you both.
    The Chairman. Thank you.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, welcome.
    A question for each of you. What should be the agenda for 
July 1 and 2, in Kennebunkport, when the two Presidents meet?
    Dr. Brzezinski.
    Dr. Brzezinski. Well, a nice boat trip----
    [Laughter.]
    Dr. Brzezinski [continuing]. Photo opportunity, family 
dinner, showing great conviviality, joint press conference on 
the lawn in a nice-scening setting. But then, in addition to 
it--and, actually, more seriously--I would hope that the 
President would say to Mr. Putin, ``Look, we have a long road 
to travel. Your country and my country are going to be playing 
important roles in the world. We have to deal with problems in 
a calm, nonaccusatory fashion. It would be good if your 
neighbors feared you less, hated you less, and perhaps you 
ought to think a little bit about that. It might be helpful to 
you to know that the road to the West for you is also going to 
be open, that we would like to have a closer association with 
you in some fashion.''
    I am not sure the Russians really want to be part of NATO, 
and probably their membership in it would mean the death of 
NATO, but we can have a wider security arrangement with them, 
particularly focusing on nonproliferation and more tangibly on 
Iran.
    I think we could say to them that we would help and support 
some wider arrangement involving the transatlantic community 
and its special association with Russia, historically. If we 
look, 20, 30 years ahead, I think the Russians know that they 
have a serious problem in the Far East, which is being 
depopulated, and which faces an overpopulated and thriving 
China; and some shared engagement in the development of a 
Euroatlantic community that embraces Russia is a vision that I 
think would attract many Russians, who know that their standard 
of living is infinitely lower than in the West, and that their 
security is threatened by protracted isolation in the 
democratic crisis.
    I think that would be helpful. But specific negotiating 
relationships cannot be negotiated in a weekend in which 
neither President is really supported by a lot of the material 
that is needed by the complexities of respective positions, and 
so forth, and I would not like to create illusions if, you 
know, personal friendship that obscures certain problems that 
we have to work out in common.
    Senator Hagel. Thank you.
    General Scowcroft.
    General Scowcroft. I agree largely with that, except about 
the boat trip----
    [Laughter.]
    General Scowcroft [continuing]. Which, in my experience, 
could set back U.S.-Russian relations by a few decades. 
[Laughter.]
    I--no, two people are not going to solve the problems. 
There's no question about that. And foreign policy is not 
psychiatry, but foreign policy is not made by states. There is 
nothing--Russia, United States. It's made by people. And when 
you're making policy, you need to figure out, How is the 
policy--how is it going to be taken? What you want to do is, do 
it in a way that makes it more effective. And I believe Zbig 
has been very critical of this administration by saying, ``We 
know what's right, you just fall in line behind us.'' We don't 
consult, and so on, and so forth.
    So, that's what I'm talking about, and, it seems to me, 
on--the one area where Russia, putatively, is still a 
superpower, that is in nuclear weapons. But the two of them 
could sit down and say, ``Look, we're the''--it could even take 
off from Putin's speech at Verkunde--``OK, let's do--let's 
figure out what we do after 2009. What's the kind of nuclear 
world we'd like to see in 30 years? How do we deal with 
nonproliferation? How do we deal with nonproliferation in Iran, 
North Korea?'' and so on. That is something the two of them 
could, in broad outlines, come to an agreement on and set the 
course for negotiations, which, right now, I think, are pretty 
nonexistent.
    Senator Hagel. Also for each of you, what is your sense of 
the Putin succession process? We have parliamentary elections 
scheduled in Russia this fall--in December--and then a 
Presidential succession election scheduled for next year.
    Dr. Brzezinski.
    Dr. Brzezinski. I think Putin will step aside, and I think 
that's an important step. If he does it, he will be the first 
ruler of Russia to have ever done so. And, even if he retains 
influence behind the scenes, that, nonetheless, is an important 
step in institutionalizing regularity and respect for 
procedures.
    His most likely successor, however, is going to be someone 
from his immediate entourage. The one that's talked about the 
most is the recently promoted Secretary of Defense Ivanov, who 
is also a KGB product, who actually tends to be even somewhat 
more outspoken, more--sharper--maybe belligerent is too strong 
a word, but more assertive in some ways than Putin has been, 
even in the last year. And he may be even more inclined than 
Putin to appeal to Russian nationalism and its various roots, 
including the resentments and so forth that Brent has talked 
about.
    So, in that sense, I don't think there's going to be a 
significant change of policy. However, I do think that the next 
President of Russia is going to be facing a much more serious 
economic and social crisis. Putin has been able to consolidate 
the chaos that ensued upon the fall of the Soviet Union. And 
this year, 2007, Russia regained the same level of GDP that it 
had at the time of the fall of the Soviet Union, which is also 
a measure of the problems that they've had to overcome, because 
they've had a lot of growth in recent years, but they have now 
reached only the level of the former Soviet Union. But, in 
doing so, they haven't really made major investments in social 
infrastructure, in addressing the social problems. And these 
will come home to roost in the course of the next presidential 
incumbency. And that, I think, will be the time when, perhaps, 
new voices and new faces will begin to appear on the political 
scene.
    And I'm preoccupied about the short-term relationship, 
because I think we have to have a strategic framework for it, 
but I'm, historically, more optimistic about the long range, 
once the Soviet elite that Putin and Ivanov exemplify has 
passed from the scene and an altogether new political formation 
begins to dominate the political scene, people who have been 
part of the world, who have dealt with the world, who have gone 
to Western business schools and so forth.
    So, that is basically the prognosis. Greater difficulties 
inside, but also probably, eventually, resumption of more 
positive political change.
    Senator Hagel. General Scowcroft.
    General Scowcroft. I, too, believe that Putin will step 
down. I believe he will try to manage things from behind the 
scenes. Whether he subsequently will attempt to change the 
Constitution to put power on a Prime Minister is another thing.
    But they have one great element of cohesion. If you take 
what, putatively, are the 10 top people in the structure right 
now, they're also chairmen of some of the top corporations 
and--commercial entities--in Russia. So, the overwhelming 
objective is to preserve that, because, if they leave office, 
then they will lose that. So, there is this attempt, which 
they're assiduously carrying out, to make sure that there's 
nothing that disrupts the transfer of power.
    But I think what's likely to happen--Putin ruled in a very 
unusual time. He followed Yeltsin--a time of great chaos, and 
so on--and there was great angst in Russia about things falling 
apart. He brought it back together. I believe his successor 
will have a lot more trouble. I think there could be splits 
within the leadership, and so on. And I agree with Zbig, that 
gradually this will evolve into something which is more 
reasonable, more stable, and durable. But--whether it'll happen 
immediately after Putin, I don't know, but I think it will 
happen.
    Senator Hagel. Thank you.
    The Chairman. Thank you.
    Gentlemen, I'd like to pursue what we've been talking about 
the last few minutes. To the extent that it matters, I share 
your view that, generationally, there's reason for optimism, 
that we're--in the next, whether it's 3 years, 5 years, 10 
years, there is likely--there is a greater reason to be 
optimistic about developments internally in Russia.
    And you said, Zbig, that your present preoccupation--this 
was the specific issues that affect our bilateral relationships 
now--if--there's only one thing I look at that makes me 
pessimistic about the optimistic projection of a emerging 
generation educated in the West--different perspective, not 
coming out of the security apparatus--that worries me, and that 
is strategic doctrine, strategic relationship. If we do not, 
during this period of transition, harness and deal with what is 
a, I think, very worrisome strategic relationship the next 
couple of years--that is, not as it relates to threatening one 
another, but as it relates to the continued instability of 
stored material--plutonium, highly enriched uranium--failure to 
follow through on the Moscow treaty, losing an opportunity to 
move toward significantly further reductions--that I don't know 
how you recapture that if it begins to erode.
    I mean, you know, there's a lot of things we can change. We 
can change--almost by treaty, by discussion, by agreement--
energy relationships. We can change relationships as it relates 
to our economic relationships, our--but I don't know how you 
harness what will become a very--a lost opportunity here, if 
something isn't done more concretely to promote this--what has, 
heretofore, been a progressively better strategic--a--sort of a 
consensus on how to deal with the existence of nuclear weapons 
and material, and cooperating together to prevent further 
proliferation.
    Could you talk to me a little bit about that dynamic? I 
mean, it seems to me--Putin talked about it, it's the positive 
part of his speech--it seems to me that it raises and ups the 
ante on its importance. It's the one place we may be able to 
cooperate. And failure to deal with it--because I see no--
I've--I don't detect any sense--and Senator Lugar would be 
better prepared to speak to this than I would, in his 
relationships with the administration--I don't detect any sense 
of urgency. As a matter of fact, I don't detect any sense of 
desire to maintain what is viewed as the old regime, in terms 
of arms control, even improving it. So, that's a little bit of 
a rambling preamble to my question.
    Could you guys discuss a little bit about strategic 
doctrine, United States-Russian attempts to deal with 
proliferation--controlling, reduction, et cetera?
    Dr. Brzezinski. Well, let me, perhaps, parse what you have 
said into three segments. One is the United States-Russian 
strategic relationship, strictly speaking. Second is the issue 
of nuclear proliferation, including ``loose nukes,'' you know, 
theft from arsenals, the Nunn-Lugar Initiative, and all of 
that. And the third is the geopolitical context on how it might 
interplay, particularly with the second of the three.
    I think, basically, the strategic relationship between the 
United States and Russia is relatively stable, in the sense 
that both sides have an equilibrium that they can live with and 
that is reasonable--reasonably understood by both sides. Though 
there are some uncertainties that should not be ignored, I 
personally think that we may have been somewhat insensitive to 
the Russian sense of American nuclear superiority--which, in 
effect, does exist--in our pursuit of the missile defense 
shield in Central Europe, some aspects of which do impinge on 
Russian capabilities, either immediately, in the short run--
that is to say, the radar facility, which would actually cover 
part of Russia--not so much the 10 interceptors in Poland, but 
if the interceptor system becomes larger in scale, and more 
effective, statistically, in probabilities, it could affect, in 
the long run, Russian capabilities. So, I think we should have 
been a little more prudent in the unveiling of this system.
    The second aspect is the ``loose nukes.'' Obviously, much 
more needs to be done. And I am deferring, in this respect, to 
Senator Lugar, who has been a pioneer in this issue. But 
obviously, we and the Russians have, and should have, a 
continued stake in making certain that there is no illicit 
access to these systems outside of the preeminent state actors 
that are responsible for generating the existence of these 
systems. And I think a great deal more can be done, and there 
are some question marks about the efficacy of some of the 
existing arrangements.
    But that brings me to the third issue, which is the 
geopolitical context. I think much depends, also in this 
connection, how the situation in the Persian Gulf and in the 
Middle East will unfold. If the United States gets involved in 
a protracted war in the Middle East, beyond what it is engaged 
in today, and particularly if it spreads to an American-Iranian 
conflict, the Russian position on that may very well be very 
ambivalent.
    On the one hand, certainly, the Russians would not wish the 
spread of nuclear weapons to rogue entities, Islamic 
fundamentalists, given the fact that a large percentage of 
Russian population, now, is Muslim--in the Russian population 
is 140-odd-million people, close to 30 million are Muslims, 
and, after the war in Chechnya, increasingly self-aroused, 
politically, and resentful--a war in Iran would contribute a 
great deal of instability to that. At the same time, it would 
also have the effect of bogging down the United States to an 
unprecedented degree.
    And we shouldn't ignore the fact that there's a great deal 
of schadenfreude already in Russia about the costs to us of our 
present imbroglio in the Middle East. And hence, there may be 
some temptation to view that, at least in a limited sense, as 
of some benefit in equalizing the status, the very asymmetrical 
status of these two powers, America and Russia.
    All of that will add further complexity to the 
relationship, produce more suspicions, more fears on both 
sides; and hence, it is something that we have to try to avoid, 
on several levels: Maintain the strategic relationship, but not 
be insensitive; tighten controls, to the extent that we can, on 
a bilateral basis; and also be very prudent, specifically in 
the Persian Gulf area.
    The Chairman. Thank you very much.
    General.
    General Scowcroft. I think this is a very important area 
for us, both of us. As I say, we are still the two big nuclear 
powers. And I am less sanguine about the bilateral--yes--is it 
stable? Yes. Is it likely to remain stable? I don't know. Four 
of our colleagues recently wrote an op-ed saying we ought to 
move toward complete nuclear disarmament. You know, I don't--I 
don't know how much traction there is in something like that. 
But if that gets hold in this country, we could have--be facing 
something very different.
    And so, I think we ought to consult each other on a nuclear 
future. What kind of a nuclear world do we both think would be 
the most stable, the most unlikely to precipitate a war--
indeed, the most likely to preserve stability? So, I think we 
have discussions at the nuclear level. My guess is that the 
arsenals are not ideally configured to long range that way.
    In the nonproliferation--that also spills over into 
nonproliferation. We still have an NPT. It is flawed. The 
Iranians are pushing a--what do you call it?--a gap, a lapse, 
whatever, in it. But another part of the NPT is an agreement 
among all the nuclear powers to start reducing their nuclear 
weapons. So, you can take advantage of that, perhaps, to put 
some more pressure on the Iranians.
    And I think the--first of all, I think a United States 
nuclear--or United States-Iranian military confrontation is not 
likely, unless it's by accident. But I think we have 
significantly common interests, as Zbig indicated, on Iran and 
on the Iranian nuclear development. And I think if we can 
cooperate across the board on nuclear issues, we can bring 
enough, perhaps, pressure--and solidarity--that Iran will think 
twice about proceeding, willy-nilly, ahead.
    The Chairman. Thank you very much.
    I can't resist the temptation, I'd like to ask one last 
question, if I may.
    What should our policy be now, with regard to Iran, if 
you're willing to respond? I know that wasn't part of the 
hearing, per se. But it does affect the relationship. Are you--
either of you--willing to venture a response to that? I know 
that's a essay question, but how would you recommend, were you 
in your old positions, we proceed on Iran now? And you can 
defer, you can demur, you can--we can end the hearing, if you'd 
like, but I--if you----
    Dr. Brzezinski. I'm willing to answer that----
    The Chairman. Well, please.
    Dr. Brzezinski [continuing]. If you want.
    The Chairman. I would like to hear your answer.
    Dr. Brzezinski. I think we ought to engage the Iranians on 
two levels. One, regarding Iraq, because the fact is that every 
one of the states adjoining Iraq is going to be threatened if 
and when we leave and if then Iraq explodes. So, there is a 
kind of latent shared interest here. My own view is that we 
ought to leave. And I won't get into that. But if we are ever 
going to leave, I think we have to engage the states around 
Iraq in serious discussion as to what should be done in 
conjunction with our disengagement. And I think Iran obviously 
is a major influence, and we have to engage it on that issue. 
And my own personal view is: The sooner, the better.
    Second, I think if we do that, it'll make it, perhaps, 
somewhat easier to engage Iran also in negotiations about a 
nuclear weapons program. There, I think we have an opportunity 
in the fact that the Iranian posture, publicly, on the nuclear 
issue, is different from the North Korean public posture. The 
North Korean public posture is, ``We have a nuclear program, it 
is also a weapons program. We want weapons, and, at one point, 
triumphantly, we have tested weapons.''
    The Iranians are saying something quite different; namely, 
``We don't have a nuclear weapons program. Second, we don't 
want nuclear weapons. Third, our religion forbids us to have 
nuclear weapons.'' Now, they may be lying through their teeth, 
and we suspect that they might be, but it is still an opening, 
which is to say, ``Fine. If that is really your posture, then 
we have a shared interest in us believing you. And, therefore, 
we ought to negotiate about arrangements, mutually agreed to, 
which would enhance our confidence that that really is the 
situation.'' And we can, you know, perhaps define some 
technical ways of dealing with that.
    But, to do that, we have to be willing to sit down. And 
here is where I part company with the administration. The 
administration says, ``We will not sit down until you stop 
enriching.'' The problem with that is that they have a right to 
enrich--not to enrich to 95 percent in order to have weapons-
grade uranium, but they're enriching only to 5 percent, which 
is in keeping with what a lot of other countries are doing when 
they're enriching uranium.
    We are, in effect, saying to them, ``Stop your program, 
though you have the right to it, for the privilege of 
negotiating with us about mutual accommodation.'' That makes it 
easier for the hardliners in Iran to say, ``No way.'' It 
mobilizes their nationalism. It tempts them to feel that we're 
essentially using this as a device to make them stop while 
negotiating ad infinitum.
    I think our position out to be, ``We want you to stop, at 
least for some duration of time, pending the negotiations, but 
we are prepared to do something in return, simultaneously.'' 
And here, I have in mind some substantial lifting of sanctions 
that have, over the years, been adopted by the United States, 
whether in ILSA or subsequent to ILSA. And these are various 
sanctions--financial, banking, trading--toward not only 
ourselves, but even to our friends. That would give the 
Iranians some sort of quid pro quo, some also facing--saving of 
face, and it would probably divide the moderates from the 
extremists in Iran, instead of a posture which actually unifies 
the extremists with the moderates and stimulates their 
nationalism.
    Now, whether that will lead to a good outcome, I don't 
know, but it certainly would break the paralysis into which I 
think we have actually injected ourselves.
    The Chairman. Thank you very much.
    General.
    General Scowcroft. I, too, think we need--we should talk to 
Iran. I don't think they're probably in a mood they feel they 
need to do us any favors on Iraq, that they're broadly content 
with us being bogged down. But I'm--I think they're prepared to 
talk about it. But, most importantly, it could lead to a talk 
about the region. And from the Iranian perspective, it's a 
dangerous region. And we ought to be willing, both to put 
things like ILSA and the other sanctions on the line, but to 
say, ``We're prepared to look at security arrangements in which 
you could feel secure.''
    On the nuclear side, I think it's important that we have a 
united front between--or among the United States, the 
Europeans, the Russians, and the Chinese. And I think that is 
not too hard to maintain, because I don't think anybody wants 
Iran to have nuclear weapons.
    And there, we proceed toward--whether it's--you call it the 
GNEP or other kinds of things, to deal specifically with the 
Iranians' objections of what they say is--``We have been 
prevented from doing things, because countries--we make 
agreements with countries, and then they withdraw.'' If we can 
have a process sanctioned by the United Nations that will 
guarantee, to any state in compliance with U.N. restrictions, 
nuclear fuel for their reactors, it seems to me we have an 
overwhelming weapon to use with them. We're not trying to deny 
them everything. And it's beyond the right of any one nation to 
veto. It seems to me that that's the kind of approach that, in 
the long run, might work.
    In the short run, it's--they're rug merchants, and they're 
skillful at playing one off against the other, and so on. And 
it's going to be long and hard, and they're going to say yes 
and no and maybe, and up and down. But, I think, with patience 
we can avoid what I think would be a real disaster in the 
region, and that is an Iran having the capability of--quick 
capability to develop nuclear weapons.
    The Chairman. Thank you both. My one regret is, you're both 
not still in the Government.
    Thank you.
    [Whereupon, at 12 p.m., the hearing was adjourned.]

                                    

      

</pre></body></html>
